About The National Science Foundation...


The National Science Foundation (NSF) is charged with supporting and strengthening all
research discplines, and providing leadership across the broad and expanding frontiers of sci-
ence and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests over $5 billion per year in a portfolio of approximately 35,000 research and educa-
tion projects in science and engineering, and is responsible for the establishment of an informa-
tion base for science and engineering appropriate for development of national and international
policy. Over time other responsibilities have been added including fostering and supporting the
development and use of computers and other scientific methods and technologies; providing
Antarctic research, facilities and logistic support; and addressing issues of equal opportunity in
science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy , efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector Gen-
eral Act of 1978, as amended. Because the Inspector General reports directly to the National
Science Board and Congress, the Office is organizationally independent from the agency.




Cover photo by Dr. Ken Busch, OIG.
                                                                                   Table of Contents


OIG Management Activities ..........................................................................................7



Legal Review .....................................................................................................................7



Outreach ...........................................................................................................................7



Other Matters ................................................................................................................. 11



Audits & Reviews .......................................................................................................... 13



Significant Audits Internal to NSF ................................................................................... 13



Significant Audits of Grants & Contracts ......................................................................... 15



A-133 Audits .................................................................................................................... 19



Audit Resolution ..............................................................................................................22



Work in Progress .............................................................................................................26



Investigations ................................................................................................................27



Civil & Criminal Investigations ......................................................................................... 27



Administrative Investigations ...........................................................................................30



Research Misconduct Investigations ...............................................................................36



Statistical Data ..............................................................................................................43



Appendix .......................................................................................................................55



Management Challenges ................................................................................................55



Reporting Requirements .................................................................................................63



Acronyms ........................................................................................................................64



Awards & Accomplishments ............................................................................................65


[Blank Page]
                 From the Inspector General



This Semiannual Report to Congress highlights the activities of the National Sci-
ence Foundation (NSF) Office of Inspector General (OIG) for the six months ending
September 30, 2008. During this period we issued 11 audit reports with questioned
costs totaling $5,288,102. We also closed out 23 civil/criminal and 35 administrative
investigations that recovered $1,047,170 for the government, while referring nine cases
for prosecution. As always, we thank our NSF colleagues for their assistance in
helping us to accomplish these excellent results.

As I prepare to retire in January from the National Science Foundation, I want to
express my gratitude to the National Science Board for allowing me the privilege
of serving the Congress, the administration, and the taxpayers as NSF’s Inspector
General. During my first year as IG, our entire staff participated in the creation of a
strategic plan that has successfully guided our priorities throughout my tenure. Those
priorities have been to: focus our investigations, audits, and other reviews on the most
significant issues and the highest-risk programs; exercise government-wide leadership
in the area of misconduct in research; be proactive in preventing problems before
they occur; and ensure that all OIG activities maintain the independence necessary to
perform the IG oversight role with integrity and objectivity.

Our office followed the principles presented in the plan, and we take pride in our
achievements. Over the past nine years, we have been a strong advocate for improved
management of large infrastructure projects and more vigilant post-award administra-
tion. I am pleased to report that NSF has made steady progress in these areas. We
have also focused attention on several other important management challenges,
including the administration of cost sharing, workforce planning, contract administra-
tion, and research ethics. With regard to research misconduct, our office has assumed
a leadership role within the federal community by founding and chairing the Misconduct
in Research Working Group, and internationally as the U.S. representative to the
Global Science Forum. In addition, we are one of the few OIGs to invest significant
time and resources in an outreach program through which we have engaged our
NSF colleagues and the larger research community in an ongoing dialogue about the
responsibilities that go along with accepting government funding.

In my view, the accomplishments and reputation of this office were implicitly recognized
last year when the OMB Deputy Director for Management appointed me to lead the
Executive Council for Integrity and Efficiency (ECIE). The ECIE is comprised of 34
agency-appointed federal Inspectors General. My tenure as Vice-Chair coincided
with the passage last month of the IG Reform Act of 2008, the first comprehensive
amendment to the original IG Act in two decades. The new law includes measures
that further enhance IG independence, while also increasing our accountability to the
public. Though many of the inherent difficulties of the Inspector General’s role remain,
given the natural tension that exists between agency management and a separate
overseer, the new law reaffirms the view that IGs best serve their agencies and the
nation when their objectivity and credibility are not compromised by a lack of organiza-
tional independence.

Finally I would like to thank the many people who have supported me and contributed
to the overall success of the OIG. First, there is the OIG staff. I am proud of the
dedicated team of individuals who continuously carry out the responsibilities and
tasks associated with our complex mission. They do this with the highest standards
of professionalism, with high productivity and dedicated perseverance. I thank the
OIG Management




                  members of Congress for their ongoing support and for their dedicated staff who have
                  worked closely with me to strengthen NSF programs and management. I greatly
                  appreciate the cooperation that the OIG receives from NSF management and staff as
                  the OIG carries out its mission. NSF has many accomplishments and will continue
                  to play a fundamentally important role in the science, engineering, and educational
                  communities. The OIG is a proud partner with NSF as it prepares for the future, striving
                  to enhance the scientific enterprise. Although I previously mentioned the National
                  Science Board, I want to emphasize the support I have received, collectively and from
                  individual members. In its oversight role, the Board shares with the Inspector General
                  the responsibilities for accountability. I greatly appreciate the Board’s responsiveness
                  to OIG recommendations. Additionally, I want to express my appreciation to my col-
                  leagues in the IG community for their assistance, advice and friendships. I will miss
                  the people. I wish all much future success as government begins its transition to a new
                  administration and faces the many challenges that exist.

                  Finally I want to express my grateful appreciation to my family and friends who have
                  supported me throughout my career. They have become ardent supporters of Inspec-
                  tors General, and are avid readers of our Semiannual Reports to the Congress.

                  With sincere gratitude and great appreciation,




                                                                            Christine C. Boesz, Dr.P.H.
                                                                                     Inspector General
	
                                                                                                       
	
                                                                                    November 19, 2008
	
	




            4


                                                        Report Highlights
•				   An audit found that the terms and conditions included in NSF’s
        cooperative agreements for the management and operation
        of its large facilities need to be strengthened for NSF to fully
        ensure its facilities accomplish their programmatic goals and
        objectives. Only two of the six large facility cooperative agree-
        ments reviewed include terms and conditions addressing all
        four of the primary components of a robust program evaluation
        and measurement system: 1) clear and agreed upon goals; 2)
        performance measures and, where appropriate, performance
        targets; 3) periodic reporting; and 4) evaluation and feedback
        to assess progress. With NSF’s large facilities funded at over
        $1 billion annually, it is important that NSF have a process to
        ensure that all large facility agreements contain each of the four
        performance evaluation and measurement components.
        (See p. 14)

•				   The OIG is performing a series of reviews at NSF’s top-funded
        universities to assess the adequacy of accounting and reporting
        processes for labor costs charged to federal awards. During
        this reporting period, reviews of two more universities with
        significant NSF and federal funding were completed and identi-
        fied significant weaknesses in the documentation, certification
        and accuracy of labor effort reports supporting approximately
        $33 million of research salaries charged to NSF awards.
        (See p. 15)

•				   Records supporting two awards to the School District of
        Philadelphia (SDP) were found to be unauditable, as auditors
        could not determine whether approximately $13 million of direct
        and associated indirect costs, and $3.2 million of cost sharing
        claimed by SDP were allowable, allocable, and reasonable.
        This occurred because SDP failed to address significant
        internal control weaknesses in its financial management of NSF
        awards first reported in an OIG audit performed in 2000. Due
        to the significant and repetitive nature of the internal control
        weaknesses, OIG recommended that NSF make no future
        awards to SDP until it verified that corrective measures have
        been implemented. (See p. 17)

•				   A university returned $283,488 in NSF grant funds that were
        improperly charged over a five-year period by a PI with personal
        issues. OIG initiated the investigation based on anonymous
        allegations that a PI at a Tennessee university misused NSF
        grant funds by submitting extravagant travel reimbursement
        requests and questionable supply expenses. A detailed review
        by our investigators and university auditors and found that some
        of the travel expenses submitted by the professor were unrea-
        sonable, and some purchases appeared personal in nature.
                                                                             5
Report Highlights


                             The university determined that many of these unallowable charges were not
                             prevented because department administrators did not stringently supervise
                             her use of grant funds out of concern for her well being. (See p. 27)

                     •				   A subject who pretended to be an NSF official to lure young women to hotel
                             rooms to carry out “research” agreed to plead guilty of one count of violation
                             of 18 U.S.C. § 912, False Personation of an Officer or Employee of the
                             United States, a felony. Our investigation determined that over 3½ years,
                             the subject placed two dozen advertisements on the internet recruiting
                             people to help with a spurious “research” project in San Francisco. The
                             subject only responded to inquiries from mid-20’s female victims, to whom
                             he sent multiple emails identifying himself (with a false name) as an NSF
                             official. (See p. 28)

                     •				   An OIG investigation into an allegation of plagiarism, determined that a PI
                             from a South Carolina university, plagiarized material from a proposal he
                             received from NSF for peer review into his own NSF proposal. Based on a
                             review of all the facts, our investigators concluded that the PI purposefully
                             plagiarized a substantial amount of text from the confidential proposal he
                             reviewed, and knowingly plagiarized a small amount of text from one inter-
                             net source. The Deputy Director: made a finding of research misconduct;
                             debarred the PI for 1 year; required the PI to provide certifications for 3
                             years after the debarment; and prohibited the PI from reviewing proposals
                             for 3 years. (See p. 36)

                     •				   OIG’s annual list of the most serious management challenges facing the
                             National Science Foundation appears in the appendix. (See p. 55)




               6


                                OIG Management Activities


LEGAL REVIEW
Program Fraud Civil Remedies Act of 1986

As reported in the past two Semiannual Reports, the 2007 NSF
Reauthorization Act, which passed in August 2007, amended
the PFCRA to bring the National Science Foundation (NSF)
within the statute’s coverage. This amendment was supported
by both OIG and NSF because it gave the agency authority to
use administrative procedures to recover losses resulting from
fraud cases under $150,000 when the Department of Justice
declines to prosecute. To take advantage of these provisions,
however, the agency must first develop NSF regulations to
implement PFCRA. In our last semiannual report, we noted
that NSF expected to publish final regulations in early August
2008; to date, however, none have been issued. Until NSF
promulgates such regulations, it remains unable to use this
powerful tool to recover funds diverted due to fraud and ensure
that appropriated funding serves its intended purposes.

OUTREACH
OIG continues to reach out to a broader and deeper audience
by partnering with major organizations and associations whose
memberships extend across large segments of the research
community. Through these organizations, we are able to
communicate directly with hundreds of research professionals
about: 1) compliance-based operations that promote ethical
conduct, and 2) strong accountability of federal research dollars
to ensure public confidence and continued support for science.
To date, our staff has opened communications with the As-
sociation of American Colleges and Universities, the American
Association of Community Colleges, the Association of
American Universities, the American Council on Education, the
Association of Governing Boards, and the National Association
of State Universities and Land Grant Colleges. We appreciate
the response our message received from these organizations
and look forward to working with them to prevent problems in
the administration of the research enterprise.

Hotline Survey. Our office also launched an initiative to
enhance the effectiveness of our Hotline program, after a            HIGHLIGHTS
recent government survey raised concerns about ethics
and the federal workplace. The Ethics Resource Center’s              Legal Review    7
National Government Ethics Survey reported that only 30% of          Outreach        7
                                                                     Other Matters   11
federal workers surveyed believe their organizations have well-
implemented ethics and compliance programs, and only one in

                                                                    7

    OIG Management




                           10 said there is a strong ethical culture in their agency. The survey also found
                           that confidential whistleblower hotlines, a means for workers to safely report
                           the misdeeds of colleagues or superiors, were not used by most employees
                           who witnessed misconduct. Overall, only 1% of government workers used such
                           hotlines to report misconduct.

                           OIG decided to conduct its own survey of NSF employees’ opinions about
                           our Hotline and to solicit recommendations on how to increase its profile and
                           use among both NSF personnel and the research community. We received
                           numerous suggestions on how to improve both the Hotline and its presentation.
                           Based on the comments received, we have updated our webpage to increase
                           the prominence of the Hotline and to make it easier for even a first-time visitor
                           to our webpage to provide confidential information to our office. We have also
                           asked NSF to include a direct link on its webpage to our Hotline. Highlighting
                           the link will serve two purposes: increase the visibility of the Hotline among
                           those who might use it; and demonstrate to NSF personnel that management
                           is committed to maintaining an ethical workplace. In addition, we have em-
                           phasized the use of the Hotline as a topic in our briefings during the NSF new
                           employee orientations. Finally, we drafted an article for inclusion in the NSF
                           Annual Report to Employees, which fully explains the confidential nature of all
                           communications with OIG, including the Hotline, and encourages NSF employ-
                           ees to use one of the many channels available to report any serious concerns.

                           Working with the International Community

                           During this semiannual period, the Inspector General participated in interna-
                           tional forums addressing issues involving research misconduct and financial
                           accountability. Dr. Boesz presented to the International Network of Research
                           Management Societies in Liverpool England, where she also served as co-host
                                                            of an International Workshop on Accountability
                                                            Challenges. Representatives from 13 coun-
                                                            tries attended the workshop in which Deborah
                                                            Cureton, AIG for Audit presented on the Single
                                                            Audit Act. In her role as U.S. representative
                                                            to the Global Science Forum (GSF), Dr. Boesz
                                                            and AIG for Investigations, Dr. Peggy Fischer,
                                                            attended meetings in Vienna. The GSF
                                                            is engaged in an ongoing effort to develop
                                                            common standards for the conduct of research
                                                            that define plagiarism and data falsification as
                                                            a prelude to developing a common process
                                                            for investigation and resolution of research
                                                            misconduct allegations.
Dr, Boesz and AIGI Dr.
Peggy Fischer with other   In addition, other members of OIG participated in numerous meetings and
representatives to the     presentations with our foreign counterparts to exchange information and best
Global Science Forum       practices. Members met with and presented to delegations from the European
meetings in Vienna.
                           Science Foundation and with Korean scholars participating in the LG Global
                           Challenger Program. In these fora, we explained our processes and oversight
                           procedures and answered questions from our international audiences.


                     8
	
                                                           OIG Semiannual Report    September 2008




Working with the Research Community

Participation in conferences. We participated in a wide range of workshops,
conferences, and other events sponsored by institutions and associations
of research professionals, carefully selected to maximize the impact of our
outreach efforts. We presented at the Association of College and University
Auditors, the Association of Independent Research Institutions, the Association
of American Colleges and Universities, the American Association of Com-
munity Colleges, the Association of American Universities, and the National
Association of State Universities and Land Grant Colleges. Through these
presentations to the larger organizations within the research community we
sought to disseminate information on best practices, encourage the develop-
ment of systems and tools to identify, resolve, and prevent the occurrence of
misconduct or mismanagement within the research enterprise.

Presentations at universities. We continue to receive many invitations to
present at, and provide training to, universities and other organizations as-
sociated with the research enterprise. We addressed numerous groups that
were involved in either applying for or administering NSF awards, performing
supported research, or conducting university-level inquiries into allegations of
research misconduct. We also presented to faculty and administration officials
involved in the conduct of research misconduct inquiries and investigations
at two universities. During each of these outreach events we shared best
practices on the enhancement of compliance and ethics programs, answered
questions, addressed relevant issues, and provided fact sheets, brochures,
posters, and other outreach material.

Working with the Federal Community

Assistance to Congress. During this semiannual period, the NSF Inspector
General, who is also Vice-Chair of the ECIE, provided advice to Congress on
behalf of the IG community about pending legislation to strengthen federal
OIGs. These efforts came to fruition when Congress passed the Inspector
General Reform Act of 2008 which promises to make the institution of Inspector
General more independent and effective in combating waste, fraud and abuse.

In preparation for hearings on open public access to federally funded research,
OIG and Congressional staff discussed OIG audits on the dissemination of its
research results and NSF’s response to the audit recommendations. OIG staff
explained that NSF is now linking scientific journal article citations to NSF’s
database of award abstracts describing the intended purpose of the research.

Assistance to OMB. OIG provided assistance to OMB in several areas. Staff
have actively participated in one of the eight workgroups established by OMB to
improve the quality of future Annual Single Audits which federal agencies rely
on to ensure grant funds are spent properly (see page 21). In addition, staff are
involved in OMB-sponsored workgroups to update OMB Circular A-50, Audit
Followup, and have provided comments on draft revisions to OMB Circular 136
Financial Reporting Requirements and OMB Circular A-127, Financial
Management Systems.

                                                                                    9


OIG Management


                  OIG activities. A committed member of the federal Inspector General
                  community, our office provided both leadership and active participation to
                  numerous OIG initiatives. The Inspector General, who is Chair of the PCIE/
                  ECIE Misconduct in Research Working Group, continued to coordinate efforts
                  within the IG community to identify, investigate, and prevent research miscon-
                  duct. The AIGI participated in the National Academy of Science Responsible
                  Conduct of Research Workshop. Other OIG staff continued to participate in the
                  Association of Directors of Investigation, the PCIE Inspections and Evaluation
                  Committee, and the PCIE GPRA Roundtable.

                  In addition, the AIGA co-chairs the Financial Statements Committee of the
                  Federal Audit Executive Council (FAEC). The FAEC Financial Statement Audit
                  Network has worked with the Government Accountability Office to revise the
                  Financial Audit Manual (July 2008) to address changes in the Federal financial
                  reporting system and the accounting and auditing standards issued by the
                  American Institute of Certified Public Accountants (AICPA), and the Federal
                  Accounting Standards Advisory Board. An NSF OIG Senior Audit Manager
                  will accept an award in October on behalf of ECIE staff who worked on this
                  substantial project.

                  Our expertise in the area of grant fraud investigations allowed us to continue to
                  make significant contributions towards federal efforts to limit such misconduct
                  throughout the government. We participated with other OIGs in numerous
                  events and initiatives aimed at combating grant fraud. These included the
                  Grant Fraud Subcommittee of the Department of Justice National Procurement
                  Fraud Task Force and the National Procurement Fraud Working Group. During
                  the past year we worked with the Federal Law Enforcement Training Center
                  to develop a grant fraud investigation training program, and in this semiannual
                  period, we provided instructors for two iterations of that training program. We
                  also participated in the Regional Procurement Fraud Working Group.

                  We frequently met and worked with individuals from a number of other federal
                  agencies and Offices of Inspectors General on a host of professional matters.
                  These included events in conjunction with the Inspector General Academy, the
                  Federal Law Enforcement Training Center, the Office of Science and Technol-
                  ogy Policy, the Department of Justice, the Department of Health and Human
                  Services, and the Government Accountability Office. Finally, we held discus-
                  sions with OIGs from the Social Security Administration, the Export-Import
                  Bank of the United States, the Department of Energy, the Federal Communica-
                  tions Commission, and the Denali Commission.

                  Working with NSF

                  National Science Board. During this semiannual period, we made several
                  presentations to the National Science Board. Through these regular briefings,
                  OIG is able to keep the leadership of NSF informed of matters of importance,
                  necessary for the effective oversight of agency operations. Topics included the
                  NSF Financial Statement Audit, ongoing labor effort audits, and the status of
                  specific ongoing investigations. In addition, we presented to the Board’s Execu-
                  tive Officer and staff on the requirements of the Sunshine Act.



           10


                                                          OIG Semiannual Report   September 2008


Agency outreach. We have also continued our
extensive outreach to NSF, primarily through our
NSF liaison program. Our liaison teams (gener-
ally one investigator and one auditor) served as
valuable conduits of information between our
offices in the course of approximately 17 liaison
events. In addition, we participated in NSF’s
New Employee Orientation program, through
which we introduce OIG’s mission to every
“class” of new NSF employees coming into the
agency. We explain how we can work together
to enhance the integrity of NSF programs and
operations.

In addition to the orientation of new employees,                                  Dr. Boesz and Dr.
OIG and NSF staff collaborate in a number of areas. We actively participated      Patricia Galloway, NSB
                                                                                  Vice-Chair, visit Poker
and present at Program Management Seminars, which provide new NSF staff           Flat Research Range
with more detailed information about the Foundation and its activities. These     near Fairbanks, Alaska
sessions are synergistic, in that they provide OIG staff with an opportunity to   during a recent Board
develop professional relationships and to learn about new developments within     meeting.
NSF program management, while educating our NSF colleagues about the mis-
sion and responsibilities of OIG. We continue to participate in NSF’s Regional
Grants Conferences and other events, such as NSF’s Joint Annual Meeting for
HRD PIs. Finally, we regularly participate in an internal media communication
effort within NSF, in which we explain the OIG mission and responsibilities.


OTHER MATTERS

OIG Seeks Reimbursement Due for Audit of NSF Award to the U.S.
Civilian Research and Development Foundation

In July 2006, as part of the NSF’s Directors Audit Priorities, NSF requested
that the OIG initiate an audit of the NSF cooperative agreement provided to
the U.S. Civilian Research and Development Foundation (CRDF), a non-profit
organization authorized by Congress after the Cold War to support research
in the independent states of the former Soviet Union. While the statute allows
for the OIG to be compensated for periodic program and financial audits from
interagency funds provided for this cooperative agreement, the OIG has not
been reimbursed for this audit.

Since 1995, other federal agencies and a private foundation have funded 89
percent of the $140 million awarded to CRDF; approximately 70 percent has
been provided by the U. S. Department of State. Under its interagency agree-
ment, NSF is responsible for administering and monitoring the financial and
programmatic performance of the CRDF award on behalf of the Department of
State. To cover NSF’s internal costs, the interagency agreement provides the
agency with an administrative fee as part of the funds transferred for the CRDF
award. Beginning in 2003, Congress also allowed for the transferred funds to
cover the costs of OIG audits of the CRDF award.



                                                                                  11


OIG Management


                  Although NSF has received almost $3 million in administrative fees for
                  handling the CRDF award since 1995, and legislation specifically allows for
                  OIG recovery of audit costs, the agency has decided not to reimburse OIG for
                  the $200,000 cost of the audit conducted at its request. NSF maintains that
                  the audit should be funded from OIG appropriations. NSF later requested
                  supplemental funds from the State Department to pay for the audit, but was
                  told that State considers the audit costs to be part of the administrative fee, and
                  therefore the responsibility of NSF.

                  The OIG will continue to try to resolve this issue with NSF. As the agency
                  increases its volume of interagency awards, it will be difficult for the OIG to
                  provide audit coverage of these other grants without additional budgetary
                  resources and/or a mechanism to recover its costs from NSF’s administrative
                  fee.




           12


                                                    Audits & Reviews

Audits performed this semiannual period identified improvements
needed in the internal controls of NSF as well as its grantee
organizations. Internal control is commonly defined as a process
implemented by management that is designed to provide reason-
able assurance that the organization’s operations are effective
and efficient, financial reporting is reliable, and applicable laws
and regulations are followed. Consequently, the OIG’s recom-
mendations are intended to promote efficiency and effectiveness
and to minimize the risk of inaccurate financial statements and
non-compliance with laws and regulations. During this semiannual
period, we also reviewed 115 annual single audits of NSF awardees
that reported a total of 165 findings and worked with NSF to resolve
findings and recommendations issued in prior periods.

Significant Audits Internal to NSF
FY 2008 FISMA Report Affirms NSF Security Program But
Identifies Improvements Needed

The Federal Information Security Management Act (FISMA)
requires agencies to adopt a risk-based approach to improving
computer security that includes annual security program reviews
and an independent evaluation by the Inspector General. Under
a contract with the OIG, Clifton Gunderson LLP conducted this
independent evaluation for FY 2008. Clifton Gunderson reported
that NSF has an established information security program and has
been proactive in reviewing security controls and identifying areas
that should be strengthened. NSF corrected four of the six findings
identified in the prior year’s independent evaluation, but the auditors
repeated two previous findings on the United States Antarctic Pro-
gram’s need to 1) replace an outdated and difficult to secure suite
of applications and 2) develop, document, and implement a disaster
recovery plan. The auditors also reported one new finding relating
to improving the review of network accounts to detect and remove
inactive accounts. NSF management concurred with the report and
will provide a corrective action plan for the new recommendation.
NSF’s corrective action plan for the repeat findings, which we have
accepted, includes implementation of corrective actions at the
                                                                           HIGHLIGHTS
end of FY 2010 for the application replacement and the end of FY
2009 for the disaster recovery plan. Implementation status will be         Significant Audits
reviewed as part of the FY 2009 independent evaluation.                     Internal to NSF        13
                                                                           Significant Audits of
                                                                            Grants & Contracts     15
                                                                           A-133 Audits            19
                                                                           Audit Resolution        22
                                                                           Work in Progress        26



                                                                          13

Audits & Reviews


                    Cooperative Agreements for Large Facilities Operations Need
                    Strengthening to Ensure Facilities Accomplish Programmatic Goals

                    An audit report found that the terms and conditions included in NSF’s coop-
                    erative agreements for the management and operation of its large facilities
                    need to be strengthened for NSF to fully ensure its facilities accomplish their
                    programmatic goals and objectives. Only two of the six large facility cooperative
                    agreements reviewed include terms and conditions addressing all four of the
                    primary components of a robust program evaluation and measurement system:
                    1) clear and agreed upon goals; 2) performance measures and, where appropri-
                    ate, performance targets; 3) periodic reporting; and 4) evaluation and feedback
                    to assess progress.

                    With NSF’s large facilities funded at over $1 billion annually, it is important that
                    NSF have a process to ensure that all large facility agreements contain each
                    of the four performance evaluation and measurement components. However
                    currently, NSF has no overarching policy in place to ensure that the agreements
                    for large facilities contain terms and conditions to address these performance
                    components. Instead, the success that some of the facilities have achieved
                    has been primarily due to the diligence and dedication of program officers who
                    identified the need for performance evaluation systems and, through a process
                    of trial and error, incorporated performance evaluation terms and conditions
                    into the cooperative agreements over time. Auditors believe the absence of
                    an agency-wide policy contributed to the inconsistency among agreements in
                    addressing all of the critical elements.

                    To ensure all current and future large facility operation agreements include all
                    four performance components, we recommended that NSF: 1) establish clear
                    authority and resources in NSF’s Large Facility Office to oversee all phases
                    of the large facility life cycle; 2) develop and train NSF staff on policies and
                    procedures for including performance evaluation and measurement terms and
                    conditions in all facility cooperative agreements; and 3) provide a mechanism
                    for knowledge transfer among program officers with responsibility for currently
                    operating large facilities. NSF staff generally concurred with our recommenda-
                    tions.

                    This review is the first of a series of audits OIG is conducting to determine
                    whether the terms and conditions included in NSF’s cooperative agreements
                    for the management and operation of its large facilities are sufficient for NSF to
                    provide stewardship over these important and sizeable programs and assets.
                    Using a representative sample of six currently operating facilities, we are as-
                    sessing the sufficiency of NSF’s cooperative agreements to ensure: 1) accom-
                    plishment of programmatic goals; 2) financial and administrative accountability;
                    3) protection of NSF assets; and 4) compliance with laws and regulations. The
                    second audit, assessing the sufficiency of the terms and conditions related to
                    financial and administrative accountability, should be complete in early 2009.




             14


                                                              OIG Semiannual Report   September 2008


Significant Audits of Grants & Contracts
The OIG is performing a series of reviews at NSF’s top-funded universities to
assess the adequacy of accounting and reporting processes for labor costs
charged to federal awards. During this reporting period, reviews of two more
universities with significant NSF and federal funding were completed. These
reviews identified significant weaknesses in the documentation, certification and
accuracy of labor effort reports supporting approximately $33 million of research
salaries charged to NSF awards.

Among other significant reviews performed, an audit at a school district found
the records supporting charges to the NSF award to be unauditable. Also,
audits of three NSF contractors identified inadequate monitoring of $6.7 million
of subaward costs, noncompliance with federally disclosed cost accounting
practices, and $324,472 of overcharges for indirect costs.

University of California, San Diego Needs Better Oversight of its
Decentralized Labor Effort Reporting System

An audit of the payroll distribution and effort reporting system used by the
University of California, San Diego (UCSD) found that UCSD generally had a
well established and sound federal grants management system, but identified
significant weaknesses in UCSD’s support of time reporting and certification
processes affecting over 60 percent of the sampled salary and wages selected
from a total population of $28.7 million of salary charged to NSF awards.

UCSD operates a decentralized labor effort system in which the primary
responsibility for many grants management functions rests with the individual
research academic departments. The deficiencies cited in the report were the
result of UCSD’s failure to adequately oversee the activities of these depart-
ments. For example, auditors found that more than 60 percent of the $1.2
million in sampled FY 2006 salary charges were certified after the due date
set by the University. Also, some Personnel Activity Reports (PARs) were not
signed or did not include proper confirmation of the reported labor effort, and
four employees incorrectly charged NSF for 5 to 20 percent of labor expended
on unrelated administrative activities. Without timely or appropriate controls for
certifying labor effort reports, assurance that the certifications are reliable and
reasonably support the substantial amounts of salaries and wages charged to
NSF’s sponsored projects is compromised.

The weaknesses in UCSD’s labor effort reporting system occurred because the
University had not: 1) established sufficient detailed written guidance for all PAR
processes to ensure full compliance with federal requirements; 2) effectively
communicated University policies and procedures to all staff involved in the
PAR process; or 3) performed adequate monitoring to ensure all UCSD depart-
ments complied with established PAR policies and procedures. Furthermore,
the University had not conducted an independent internal evaluation of sufficient
scope to ensure the effectiveness of the payroll distribution and effort reporting
system, thus missing an opportunity to identify and address needed improve-
ments.



                                                                                      15


Audits & Reviews


                    The report’s recommendations aim to address these weaknesses and to
                    improve UCSD’s internal control structure for PAR management and oversight.
                    The University generally concurred with the audit findings and recommenda-
                    tions and agreed to make the necessary changes to its policies and procedures.
                    UCSD has also completed implementation of an automated labor effort report-
                    ing system, which should facilitate the adoption of our recommendations.

                    Vanderbilt University Needs to Ensure Accurate Reporting of Labor
                    Charges and Effort on Sponsored Projects

                    Vanderbilt University did not approve effort reports timely and/or document
                    certification dates in a majority of the records sampled. As a result, Vanderbilt’s
                    labor effort certifications did not always ensure that over 70 percent of the
                    sampled items selected from a total of $4.2 million of salary and wages charged
                    to NSF grants, reasonably reflected actual work performed on sponsored
                    projects. The auditors found that principal investigators (PIs) did not review
                    and approve labor effort reports within six months of the end of the reporting
                    period for 12 of the 68 reports reviewed, representing 16 percent of total salaries
                    tested. Furthermore, they could not determine whether another 41 reports,
                    representing 60 percent of the sampled NSF salary charges were approved
                    timely because of missing certification dates. In addition, five of the 30 sampled
                    employees interviewed reported actually working 10 to 50 percent less on NSF
                    grants than the time certified on their labor effort reports.

                    Late certifications diminish the reliability of Vanderbilt University’s after-the-fact
                    confirmation of NSF labor costs because certifying officials are relying on their
                    memory, in some cases as long as a year later, to validate the reported labor
                    effort. For example, we found that certifying officials authorized $17,955 (3
                    percent) of salary for five employees who did not work sufficient time to justify
                    the salary charged to the NSF projects. Without documented certification
                    dates, Vanderbilt cannot determine whether the labor effort confirmations were
                    timely or not. The systemic nature of these control weaknesses raises concerns
                    about the reasonableness and reliability of the remaining $3.6 million in FY
                    2006 labor costs that Vanderbilt University charged to NSF grants and the labor
                    costs claimed on $300 million of other federal grants.

                    In addition, the audit found that Vanderbilt needs to provide for accurate report-
                    ing of voluntarily committed labor effort devoted by faculty members on federal
                    projects. Unreported voluntary committed PI effort comprised approximately
                    3 percent of the total $298,646 of labor costs charged to NSF awards by the
                    15 faculty members reviewed. Because Vanderbilt had over 2,800 full-time
                    faculty members, the amount of unreported voluntary committed effort could
                    be significant. As such, NSF has less assurance that PIs actually devoted the
                    level of effort promised in their grant proposals to accomplish project objectives.
                    Furthermore, as required by federal regulations, the unrecorded voluntary
                    committed time should have been included in the organized research base
                    Vanderbilt uses to calculate its indirect cost rate, thus reducing the amount of
                    indirect costs the University charges to the federal government.




             16


                                                             OIG Semiannual Report    September 2008


These weaknesses occurred because Vanderbilt had not established adequate
internal controls to provide for proper administration and oversight of its payroll
distribution and labor effort reporting system. Specifically, the University had
not: 1) established comprehensive effort reporting policies and procedures; 2)
provided adequate employee training to ensure clear campus understanding of
the effort reporting process; and 3) performed sufficient monitoring to ensure
campus implementation and compliance with established University and federal
effort reporting policies and procedures. Vanderbilt generally agreed with our
recommendations.

Significant Internal Control Weaknesses at School District of
Philadelphia Persist and Result in Disclaimer of Opinion

OIG auditors found the records supporting two awards to the School District of
Philadelphia (SDP) to be unauditable and therefore could not determine whether
approximately $13 million of direct and associated indirect costs and $3.2 million
of cost sharing claimed by SDP to NSF were allowable, allocable, and reason-
able. This occurred because SDP failed to address significant internal control
weaknesses in its financial management of NSF awards reported in a prior
audit.

The auditors issued a disclaimer of opinion because they were unable to test
material portions of SDP’s grant and cost sharing expenses. Of the limited
amounts the auditors were able to test, they questioned $4 million, or 31
percent, of total costs SDP claimed to NSF. In addition, SDP did not have: 1)
an adequate record retention and retrieval system; 2) an adequate system to ac-
count for, monitor, and report cost sharing; or 3) adequate policies, procedures,
or a system for the monitoring and accounting of subawardee costs. SDP
also did not track or monitor the costs it incurred for its grants by NSF budget
category, as required. These deficiencies were cited in a January 2000 OIG
audit report in response to which SDP indicated it had taken corrective action.
In fact, the deficiencies had become more egregious over time.

Due to the significant and repetitive nature of the internal control weaknesses
at SDP, OIG recommended that NSF make no future awards to SDP until NSF
has verified that SDP has taken corrective action. We further recommended
that SDP develop and implement the systems, policies, procedures, and plans
needed to address all of its internal control weaknesses. SDP disputed all the
findings and recommendations in the audit report but stated that since 2005 it
has enhanced its policies and procedures and internal controls. We forwarded
the audit report to NSF’s Division of Institution and Award Support to resolve all
questioned costs and to ensure corrective action on all internal control weak-
nesses.

Previously Identified Control Weaknesses Persist at WestEd

At NSF’s request, OIG audited $11 million of costs claimed by WestEd, a non-
profit educational research organization, and identified four significant internal
control weaknesses in WestEd’s financial management that resulted in approxi-
mately $1 million in questioned costs. Three of the four weaknesses were cited
in prior OIG and OMB Circular A-133 audit reports.


                                                                                      17


Audits & Reviews


                      The most serious deficiency cited was that WestEd did not adequately monitor
                      subaward costs amounting to $6.7 million or 61 percent of the total costs
                      charged to the NSF award. This occurred because WestEd did not effectively
                      implement the policies and procedures that it established in response to
                      recommendations made in prior audit reports. In order to validate the subaward
                      charges, the auditors performed additional audit work at subawardee locations
                      to verify costs claimed, which resulted in approximately $15,000 in overstated
                      labor and indirect costs and misclassified travel costs. Required routine
                      subaward monitoring could prevent or identify additional unallowable claimed
                      subaward costs.

                      In addition, WestEd lacked adequate documentation to support its required
                      cost sharing obligations, incorrectly recorded participant support costs, and
                      erroneously charged unallowable sales tax on alcoholic beverages. As a result,
                      WestEd could not adequately support $1.25 million in cost sharing contributions
                      that it claimed was provided by a third party, leading the auditors to question
                      over $988,000 of NSF-funded costs. Over $7,000 in overstated indirect costs
                      and sales tax costs were also questioned.

                      While WestEd indicated that it has made progress to develop improved control
                      policies and procedures, implementation and adherence are needed to prevent
                      continued reoccurrence of these problems. We have forwarded the audit report
                      to NSF’s Division of Institution and Award Support to resolve the questioned
                      costs and ensure corrective actions.

                      NSF Contractor Overcharges Indirect Costs

                      An audit of four contracts with $2.74 million in costs claimed in 2003 revealed
                      that Abt Associates (Abt), a for-profit research and consulting firm, may be
                      incorrectly recording $2.5 million in employee pension costs resulting in
                      overcharging indirect costs to its government contracts. Also, Abt changed its
                      method of accounting for indirect costs without prior government approval. Both
                      of these accounting issues are Cost Accounting Standard (CAS) violations that
                      will be resolved by Abt’s federal cognizant contracting agency, U.S. Agency for
                      International Development (AID).

                      The audit was the second of a series of three audits that the OIG contracted
                      with the Defense Contract Audit Agency (DCAA) to perform on costs that Abt
                      claimed on NSF contracts for 2002 through 20041. DCAA qualified its opinion
                      on the FY 2003 costs claimed because the CAS violations may result in
                      additional questioned costs that cannot be determined until the issues are
                      resolved. Finally, Abt did not include $316,470 in its indirect cost alloca-
                      tion base for two indirect cost rates, which resulted in Abt overcharging
                      NSF $1,710 in indirect costs.

                      We suggested that NSF coordinate with U.S. AID to resolve Abt’s CAS non-
                      compliance issues and determine the amount of unallowable costs charged to
                      NSF contracts. We forwarded the audit report to NSF’s Division of Acquisition
                      and Cooperative Support to resolve any questioned costs and ensure corrective
                      actions are taken.

                      1 We first reported on costs claimed in 2002 by Abt Associates in the September 2007 Semiannual Report,
                      p. 16.
             18
	
	
                                                            OIG Semiannual Report    September 2008


WHOI Claimed Employee Benefits
Pension and Other Indirect Costs
in Error

An audit of Woods Hole Oceanographic
Institution’s (WHOI) federal costs claimed
for FY 2006 found that WHOI overcharged
its customers approximately $544,000 by
including unallowable items in calculating its
indirect cost rates. OIG contracted with DCAA
to perform the audit, which was requested by
NSF management. WHOI, a non-profit orga-
nization that manages and operates a number
of research vessels and submersibles funded
by NSF’s Division of Ocean Sciences, incurred
nearly $102 million in costs on federal awards                                       This photo of pink
in FY 2006, $59 million or 58 percent of which was provided by NSF.                  jellyfish from the order
                                                                                     Stauromedusae was
The auditors concluded that WHOI properly charged direct costs to NSF awards         taken during a research
using acceptable ship and submersible cost recovery rates. However, while            voyage on the WHOI
                                                                                     vessel Atlantis.
WHOI correctly applied its fixed indirect cost rates to its federal awards, it
improperly included approximately $460,000 in unallowable pension costs and
$83,000 in unallowable software losses and social activity costs in determining
two of its six indirect cost rates. As a result, WHOI overcharged its customers
$544,418 of which NSF was overcharged approximately $315,762 on its FY
2006 awards.

We suggested that NSF coordinate with WHOI’s cognizant federal agency, the
Office of Naval Research, to ensure that WHOI records and claims pension
costs and other unallowable costs in accordance with federal requirements.
WHOI disagreed with most of the questioned costs. We forwarded the audit
report to NSF’s Division of Institution and Award Support for corrective action.

A-133 Audits
Single Audits Identify Material Weaknesses and Significant
Deficiencies in 40 of 115 Reports

OMB Circular A-133 provides audit requirements for state and local govern-
ments, colleges and universities, and non-profit organizations receiving federal
awards. Under this Circular, covered entities that expend $500,000 or more
a year in federal awards are required to obtain an annual organization-wide
audit that includes the auditor’s opinion on the entity’s financial statements and
compliance with federal award requirements. Non-federal auditors, such as
public accounting firms and state auditors, conduct these single audits. The
OIG reviews the resulting audit reports for findings and questioned costs related
to NSF awards, and to ensure that the reports comply with the requirements of
OMB Circular A-133.




                                                                                     19


Audits & Reviews


                    In the 115 audit reports reviewed this period, covering NSF expenditures of
                    more than $4.4 billion during audit years 2004 through 2007, the auditors issued
                    12 qualified opinions on awardees’ compliance with federal grant requirements,
                    on their financial statements, or on both. In particular, the auditors identified 92
                    of the 165 findings (in 40 of the 115 reports reviewed) as material weaknesses
                    or significant deficiencies, indicating serious concerns about the auditee’s ability
                    to manage NSF funds and comply with requirements of major grant programs.
                    Not correcting these deficiencies could lead to future violations and improper
                    charges. As detailed in the table below, the most common violations were
                    related to financial and award management and indirect costs.

                                           Findings Related to NSF Awards

                     Category of Finding          Type of Finding
                                                                    Internal
                                                  Compliance                    Monetary Total
                                                                    Controls
                     Financial and Award
                                                  31                18          4           53
                     Management
                     Salary/Wages                 17                1           2           20

                     Fringe Benefits              3                 1                       4

                     Subawards                    11                1                       12

                     Procurement System           14                6                       20

                     Equipment                    10                1                       11

                     Cost-Sharing                                               1           1

                     Indirect Costs               21                1           1           23
                     Property Management
                                                  1                                         1
                     System
                     Other Direct Costs           2                 1           3           6

                     Travel                       5                             1           6

                     Program Income               1                                         1
                     General Areas
                                                                    7                       7
                     (Information Technology)
                     TOTAL                        116               37          12          165


                    We also examined 54 management letters accompanying the A-133 audit
                    reports. Auditors use these letters to identify internal control deficiencies that
                    are not significant enough to include in the audit report, but which could become
                    more serious over time if not addressed. The letters disclosed a total of 62
                    deficiencies that could affect NSF awards in areas such as tracking, managing,
                    and accounting for NSF costs and segregation of duties.
             20


                                                                                  OIG Semiannual Report         September 2008


Single Audits Continue to Have Timeliness and Quality Deficiencies

The audit findings contained in A-133 single audit reports help to identify poten-
tial risks to NSF awards and are useful to both NSF and the OIG in planning site
visits, post-award monitoring, and future audits. Because of the importance of
A-133 reports to the process of overseeing awardees, the OIG returns reports
that are deemed inadequate to the awardees to work with their audit firms to
take corrective action.

Of the 45 audit reports2 we reviewed in which NSF was the cognizant or
oversight agency for audit,3 30 (67 percent) did not fully meet federal reporting
requirements. For example, we found that 10 reports (22 percent) were submit-
ted late or the audit reporting package was incomplete. Also, for 16 reports
(36 percent), the Schedule of Expenditures of Federal Awards did not provide
sufficient information to identify federal funds that were received via non-federal
“pass-through” entities, and another 13 reports (29 percent) either did not
include a corrective action plan or the plan was incomplete to address the audit
findings. Eleven reports (24 percent) did not adequately identify the federal
award to which the findings applied, the criteria or regulatory requirement upon
which the findings were based, and/or the cause and effect of the findings.

In addition, eight of the 45 reports we reviewed (18 percent), or 8 of the 30 audit
reports with timeliness and/or quality deficiencies (27 percent), involved repeat
deficiencies which we had reported to the auditors and awardees during reviews
of previous audits. In most cases, the repeat deficiency occurred because the
auditors did not receive our letter before issuing the subsequent year’s audit.
However, in one instance, the letter contained the same deficiency for the third
consecutive year.

The OIG identified each of the potential errors and contacted the auditors
and awardees, as appropriate, for explanations. In most cases, they provided
adequate explanations or additional information to demonstrate compliance
with the Circular, or the error did not affect the results of the audit. However,
we rejected one report due to significant non-compliance with federal reporting
requirements. We issued a letter to each auditor and awardee informing them
of the results of our review and the specific issues on which to work during
future audits to improve the quality and reliability of the report.

Improvements Ongoing in Response to National Single Audit
Sampling Project

Last year, we reported on the results of the National Single Audit Sampling
Project, issued by the IG community to assess in general the quality of the
audits that are required by the Single Audit Act.4 The project found that 93 of
208 sampled audits were of limited reliability or unacceptable. The report made
several recommendations to OMB, various federal agencies, and the American
Institute of Certified Public Accountants (AICPA).
2 The 45 reports were prepared by 30 different audit forms.
	
	
3 The “cognizant or oversight agency for audit” is defined as the federal agency which provided the largest 

amount of direct funding to an auditee. On a 5-year cycle, OMB assigns a cognizant agency for audit to 

auditees who expend $50 million or more in federal funds in a year. On an annual basis, OMB assigns an 

oversight agency for audit to auditees who expend less than $50 million in federal funds in a year.
	
	
4 September 2007 Semiannual report, p. 17.
	 
	

                                                                                                                21


Audits & Reviews


                    In response to the findings and recommendations in the report, OMB has
                    established eight workgroups, comprised of individuals from the IG community
                    coordinating with taskforces established by the AICPA, to improve the quality
                    and oversight of future single audits. The workgroups will revise appropriate
                    sections in OMB Circular A-133, the OMB Compliance Supplement, and AICPA
                    guidelines related to presenting audit findings documenting audit testing on
                    internal controls and compliance with federal requirements, and developing and
                    documenting audit sampling plans. Workgroups have also been established
                    to develop a training curriculum for auditors who perform Single Audits; revise
                    PCIE/ECIE standards for conducting initial reviews of the reporting package’s
                    completeness and compliance with Circular A-133 requirements, and quality
                    control reviews of the auditor’s workpapers in order to ensure uniform reviews
                    by the federal community; and determine what sanctions and punitive actions
                    are available to federal agencies in response to substandard audits.

                    NSF OIG staff are participating in the workgroup to revise the PCIE/ECIE
                    standards for conducting quality control reviews, and have taken the lead on
                    making revisions to the initial review checklist. OIG staff have also met with
                    members of the AICPA Peer Review Board to discuss how initial reviews
                    and quality control reviews of A-133 audits compare to the AICPA’s own peer
                    reviews. Several workgroups expect to issue exposure drafts of the proposed
                    Circular A-133 changes for public comment in the Federal Register during the
                    next semiannual period.

                    Audit Resolution
                    NSF Implements Recommendations to Enhance Stewardship of
                    Research Center Programs

                    In late 2007, we issued an audit report on NSF’s policies and practices to
                    oversee and manage its eight research center programs. The report noted
                    that while the National Science Board (NSB) and NSF senior management had
                    issued a set of principles and general guidance that provided a broad framework
                    to ensure effective management, oversight, and accountability for center
                    programs, NSF program managers had not consistently implemented this guid-
                    ance. Further, NSF lacked a formal mechanism for program managers to share
                    information and best practices to enhance their management and oversight
                    principles. Our report recommended that NSF incorporate the guidance into
                    its formal policies and procedures and re-establish a forum for center program
                    managers to discuss common issues and identify and exchange promising
                    practices.

                    During this semiannual reporting period, NSF implemented both recommenda-
                    tions. In July 2008, NSF took action to implement our first recommendation by
                    updating its Proposal and Award Manual to incorporate both the NSB principles
                    and NSF Senior Management guidance regarding research center programs.
                    NSF describes the guidance and principles as the framework and baseline for
                    overseeing and managing center programs. It also states that, if program staff
                    supplement this guidance when communicating it to their Center programs, the
                    supplemental guidance should be documented in eJacket (NSF’s electronic
                    record system) and shared with NSF staff from other Center programs, as
                    appropriate.
             22


                                                             OIG Semiannual Report   September 2008


In the same month, NSF implemented the second recommendation by holding
the first Effective Practices Forum for the NSF Center Programs. In this ses-
sion, each of NSF’s research center programs discussed its diversity goals,
strategies for achieving these goals, and program achievements and concerns.
NSF plans to hold four meetings each year to stimulate discussion and an
exchange of information on effective practices for the management of research
centers.

UCAR Agrees to Implement Corrective Actions

The University Corporation for Atmospheric Research (UCAR) has agreed to
correct the significant internal control weaknesses in its purchase card program
and employee timekeeping processes reported in our March 2008 Semiannual
Report, but has not yet implemented all corrective actions.

The audit was initiated based on information developed during an OIG investiga-
tion of an employee’s fraudulent use of a UCAR purchase card. The audit
report noted that while the internal control structure for UCAR’s purchase card
program contained the basic elements of an effective internal control system,
the controls were not always implemented or effective in preventing or detecting
fraud. UCAR took immediate steps to address the weaknesses identified in
the audit, including strengthening its procedures for supervisory review and
approval of monthly billing statements and supporting purchase receipts. UCAR
also agreed to perform random inventories on purchased items costing less
than $5,000, which are susceptible to theft, and to implement a timekeeping
system that records all employees’ hours worked and when they are on leave. It
is in the process of identifying a system that will address these needs. Federal
guidelines require grantees to have effective controls over government funds,
and NSF is responsible for ensuring that corrective actions are satisfactorily
implemented.

$25,778 in Questioned Costs Sustained and Internal Control
Weaknesses Corrected at the University of California, Berkeley

In our March 2008 Semiannual Report,5 we reported that the University of
California, Berkeley (UCB) labor effort certifications did not always ensure that
salary and wages charged to NSF awards reasonably reflected actual work
performed on sponsored projects and identified a number of serious control
weaknesses.

Since that audit, UCB instituted a new web-based effort reporting system and
procedures that should correct most of the deficiencies cited in the report,
including monitoring the certification of effort reports to ensure timely comple-
tion. UCB also added an internal control to ensure personnel certifying effort
reports are in a position to know whether work was actually performed and
benefited NSF’s awards. In addition, the University strengthened its training
program on effort reporting and agreed to perform independent evaluations
of the effort reporting system every three years to ensure it meets federal and
NSF requirements. NSF sustained all of the $25,778 in questioned costs and
has verified with the Division of Financial Management that UCB has repaid the
entire amount in two payments received in April and June 2008.
5 March 2008 Semiannual Report, pp. 15-16.
                                                                                     23


Audits & Reviews


                    Non-Profit Requested to Record Actual Indirect Costs in Its
                    Accounting System to Properly Report the Full Cost of Its
                    Operations

                    The March 2008 Semiannual Report,6 discussed two reviews of Bermuda
                    Institute of Ocean Sciences’ (BIOS) accounting system and costs claimed on
                    four awards. Those reviews found that BIOS did not comply with a federal
                    requirement to use actual rather than budgeted indirect cost rates to close out
                    and recognize its final costs in its accounting records. As a result, BIOS may
                    not be recovering the full cost of its operations. The possible underbilling of
                    expenses, coupled with increased costs that BIOS incurred for an expanded
                    research program, could impact BIOS’ ability to operate without additional
                    funding, cost reductions, or increased revenue.

                    NSF agreed that BIOS’ current accounting practices could potentially lead to
                    under-billing its federal funding agencies and encouraged BIOS to consider the
                    use of the NSF negotiated final rates to close its accounting records at year-end
                    to reflect its actual indirect costs. Also, in response to OIG concerns about the
                    financial stability of BIOS, NSF reviewed BIOS’ FY 2006 financial statement
                    and noted increases in property, plant and equipment assets and increases in
                    revenue from investments and outside party contributions. NSF stated that it
                    will monitor BIOS’ 2007 financial statements when negotiating its next indirect
                    cost rate proposal.

                    NSF Sustains $173,663 of Questioned Costs Due to Significant
                    Internal Control Weaknesses at University

                    An audit of three awards amounting to $9.4 million to the University of Maryland
                    Baltimore County (UMBC) found serious internal control deficiencies, including
                    inconsistent adherence with UMBC’s own established financial management
                    practices, as reported in our September 2007 Semiannual Report.7

                    In submitting costs to NSF for reimbursement, auditors found that UMBC staff:
                    1) did not always follow the University’s cost accounting procedures to ensure
                    that costs were accurate, allowable, and allocable; 2) did not always monitor
                    the subaward costs and cost sharing as required; and 3) did not have adequate
                    procedures to detect errors in the amount of indirect costs it claimed. These
                    internal control deficiencies resulted in $174,655 of erroneous costs billed to
                    NSF grants that the auditors questioned.

                    During the resolution process, UMBC submitted documentation supporting
                    corrective action it has taken, including the reorganization of UMBC’s Office
                    of Sponsored Programs and Office of Contract and Grant Accounting. UMBC
                    is also 1) establishing grant compliance review procedures; 2) providing
                    training programs on proper federal award management; 3) developing a new
                    subawardee fiscal monitoring plan; and 4) developing procedures for the review
                    and recalculation of indirect costs. NSF sustained $173,663, or 99 percent, of
                    the questioned costs.


                    6 March 2008 Semiannual Report, p. 19.
                    7 September 2007 Semiannual Report, pp. 16-17.


             24


                                                             OIG Semiannual Report    September 2008


SRI Improves Licensing and Reporting Activities for Radar Project

As reported in our March 2008 Semiannual Report,8 a financial audit of $30
million of NSF funded costs incurred under a cooperative agreement with SRI
International (SRI) found that SRI had failed to renew licenses timely and submit
completed reports to Canadian authorities for the Advanced Modular Incoherent
Scatter Radar (AMISR) project. In addition, SRI did not keep Canadian authori-
ties fully apprised of the scientific research activities performed on the AMISR
project through its annual license renewal reporting process, or obtain NSF
review and approval of all agreements with the Canadian authorities as required
by the agreement.

The noncompliance with the requirement to maintain timely license renewals
was caused by SRI’s lack of a written policy and procedure for obtaining
scientific license renewals, and its lack of understanding of the license renewal
process and requirements. In response to the recommendations, SRI has
obtained a current scientific license to conduct research for the project, and
established procedures for the renewal of the research license and submission
of the annual report to the local government. In addition, SRI has developed
a tracking system to identify project requirements and due dates to coordinate
licensing and reporting actions with NSF program officials.

NSF Errors and Contractor Cost Overruns Result in $231,838 of
Questioned Costs

In March 20079, we reported on an audit of $4.8 million in claimed costs on an
NSF contract with Temple University to provide technical evaluation support for
NSF’s Division of Research, Evaluation and Communication. The audit ques-
tioned $230,291 in costs claimed in excess of the authorized contract funding
and $1,547 was for unallowable alcoholic beverages.

Although NSF had prepared a modification to increase the award by $175,000,
it did not sign the award document that provided additional funding to Temple.
Therefore, the auditors could not verify that NSF had actually approved the
increased funding. The missing NSF approval on the modification document,
coupled with an additional cost overrun of $55,291 resulted in the auditors
questioning the $231,838.

During audit resolution, NSF determined that it had received benefit from the
services Temple University performed and therefore allowed all of the extra
costs. To correct the contract administration lapses, NSF executed a new con-
tract modification that provided the funding for Temple for all the contract costs,
except for the $1,547 in unallowable alcohol expenses. In addition, NSF, in its
newly issued Contracts Award Manual, included requirements for the Division
of Acquisition and Cooperative Support staff to complete a distribution checklist
and ensure that all award documents are signed, provided to the contractor, and
retained in the official contract file.



8 March 2008 Semiannual Report, pp. 18-19.
9 March 2007 Semiannual Report, p. 17

                                                                                      25


Audits & Reviews


                    NSF Sustains $320,418 in Questioned Costs and $25,074 in Penalties

                    An audit of two NSF contracts with Compuware Corporation totaling $28.2
                    million over four years to provide information technology support services to
                    NSF resulted in questioned costs of $320,418 because Compuware incorrectly
                    included direct costs in the overhead pool and claimed unallowable costs for
                    gifts, contributions, parties and picnics.10 The auditors reported that the ques-
                    tioned unallowable costs were subject to penalties and calculated the amount to
                    be $25,074. NSF resolved this audit by implementing all of the auditor’s recom-
                    mendations, including sustaining all of the questioned costs and agreeing to
                    assess the penalties at the close of the applicable contract. NSF also obtained
                    Compuware’s agreement to review and revise two subsequent years’ cost
                    submissions to ensure that the same type of mischarges were not included, and
                    required Compuware to revise its policies and procedures to prevent recurrence
                    of similar problems on the ongoing contract.

                    Work in Progress
                    The OIG Continues to Review Labor Effort at Universities

                    As noted in prior Semiannual Reports,11 the OIG is conducting a series of
                    reviews to assess the adequacy of accounting and reporting processes for labor
                    costs at NSF’s top-funded universities. Approximately, one-third of all NSF
                    funds provided to universities are for salaries and wages, amounting to more
                    than $1.2 billion annually. As of September 30, 2008, we have completed six
                    audits and have six more currently in progress that are expected to be com-
                    pleted early next year. The objectives of these audits are to evaluate whether
                    the universities’ internal controls are adequate to properly manage, account for,
                    and monitor salary and wage costs and to determine if these costs are allow-
                    able in accordance with federal cost principles. In 2009, we plan to initiate four
                    additional audits, bringing our total work in this series to 16 audits. At that point,
                    we will assess the need for additional reviews of university labor effort.

                    NSF’s Audit Resolution Process

                    We are continuing our audit of the process NSF follows to resolve the findings
                    and recommendations of OIG and A-133 single audits conducted of NSF award
                    recipients. Our objective is to determine whether NSF has adequate policies
                    and procedures for resolving and closing out the audit recommendations, and
                    whether NSF implements the policies and procedures effectively and timely. To
                    address the objective, we are evaluating NSF’s resolution actions for a statisti-
                    cally representative sample of audits issued during the period FY 2003 through
                    FY 2007. We anticipate completion of this audit in early 2009.




                    10 March 2007 Semiannual Report, p. 17.
                    11 September 2005 Semiannual Report, p. 20.



             26


                                                        Investigations


CIVIL & CRIMINAL INVESTIGATIONS
University Returns $283,488 in Misused Grant Funds;
NSF Declines to Take Action Against the PI

A university returned $283,488 in NSF grant funds that were
improperly charged over a five-year period by a PI with personal
issues. OIG initiated an investigation based on anonymous al-
legations that a PI at a Tennessee university misused NSF grant
funds by submitting extravagant travel reimbursement requests
and questionable supply expenses. A detailed review by our
investigators and university auditors and found that some of the
travel expenses submitted by the professor were unreasonable,
and approximately $3,000 in purchases appeared to be personal
in nature. The university’s internal audit department assisted us in
resolving these allegations.

We interviewed the PI, who provided a sworn statement admitting
that she submitted receipts for non-grant-related purchases totaling
$3,000. The PI explained that, when these questionable receipts
were submitted, she was experiencing very difficult personal is-
sues. She also stated that she often submitted receipts and travel
vouchers weeks after her return from travel and would frequently
guess at the nature of the receipts since she could not recall the
actual expenditures.

The university’s detailed review of over $2 million in grant charges
found that, over a five-year period, $283,488 was wrongfully
charged to the PI’s NSF grants. The university determined that
many of these unallowable charges were not prevented because
administrators at the PI’s department were concerned for the PI’s
well being, and did not stringently supervise her use of grant funds.
The university returned $283,488 to NSF. The PI, who was also the
co-PI on another NSF grant, had taken a leave of absence from the
university prior to our investigation, and subsequently resigned from
the university during the investigation.

The U.S. Attorney’s Office declined prosecution based on the
burden to prove beyond a reasonable doubt that the PI knowingly
and willfully submitted false claims to NSF grants. However, our in-
vestigation found that the PI submitted excessive and unreasonable         HIGHLIGHTS
expense claims against NSF grants, misrepresenting the expense             Civil & Criminal
claims as a result of grossly negligent behavior. Consequently,             Investigations       27
we recommended that NSF take administrative action to limit the            Administrative
financial responsibilities that the PI is permitted to assume on future     Investigations       30
NSF grants. Even though it routinely takes administrative actions          Research Misconduct
against individuals (e.g. research misconduct sanctions and debar-          Investigations       36

                                                                          27

Investigations


                    ment), NSF declined to take action in this case based on the fact that the PI is
                    no longer associated with the university and NSF’s observation that it “makes
                    awards to institutions and not to individuals.” Though the PI is not currently
                    associated with any NSF grants, OIG recommended administrative action as
                    a safeguard against the probability that that the PI will resume her research
                    career at another institution with projects supported by NSF.

                    Subject Pleads Guilty to Impersonation of an NSF Official

                    We received an allegation that a subject pretended to be an NSF official to lure
                    young women to hotel rooms to carry out “research” supported by NSF. We
                    investigated and determined that over 3½ years, the subject placed two dozen
                    advertisements on the internet recruiting people to help with a spurious “re-
                    search” project in San Francisco. The subject only responded to inquiries from
                    mid-20’s female victims, to whom he sent multiple emails identifying himself
                    (with a false name) as an NSF official. He also prepared and sent the victims
                    numerous electronic copies of elaborate “research” instructions, into which he
                    inserted NSF logos to create the appearance of official NSF documents.

                    The subject (posing as an NSF official) ultimately persuaded two victims to
                    meet a “patient” (the subject) in a hotel room, and once there to follow instruc-
                    tions to direct, observe, and record him engaging in a variety of salacious
                    activities. Before the sessions began, the subject required the victims to sign a
                    bogus NSF non-disclosure agreement, threatening that NSF would take “legal
                    or equitable” action against them if they were to disclose anything about their
                    activities. Despite the subject’s intimidation, two of the victims contacted NSF,
                    which referred the information to us for investigation.

                    OIG investigators interviewed the subject, who denied everything. We referred
                    the matter to the DOJ Criminal Division, and proceeded to issue several
                    subpoenas for information about the subject’s activities. Under the Right to
                    Financial Privacy Act (RFPA) his attorney challenged the subpoena for his
                    credit card records. We successfully opposed the RFPA challenge and the
                    court ordered the bank to produce the records.

                    Ultimately, the subject agreed to plead guilty of one count of violation of 18
                    U.S.C. § 912, False Personation of an Officer or Employee of the United States,
                    a felony. The subject pled guilty in the U.S. District Court for the Northern
                    District of California on 18 April 2008, and he is scheduled to be sentenced on
                    14 November 2008.

                     NSF Agrees to Restrict Use of NSF Logo

                     Since the inception of our office in 1989, we have investigated a number
                     of cases of misuse of NSF’s logo. In every case, the subjects used the
                     NSF logo to add verisimilitude to their impersonation of NSF officials or
                     researchers affiliated with NSF. The case discussed on this page is the
                     most serious. In another case, a person used the NSF logo to fabricate
                     faux NSF letterhead, in order to represent that a NASA entity was an NSF-
                     funded awardee entitled to discounted computer prices. He later pled guilty
                     to a federal misdemeanor charge. Yet another individual created a website
                     called NSFfunding.com with the NSF logo on every page, claiming that he

           28
	
	
                                                               OIG Semiannual Report   September 2008


     was acting at NSF’s behest to investigate wrongdoing by numerous officials
     conspiring to squelch his research findings. The Department of Justice
     (DOJ) contacted the web host, with the result that the website was removed
     and DOJ declined further prosecution.

     NSF makes various versions of its logo available on its website, without any
     restrictions on its use. Misuse of federal agency logos potentially violates
     three federal criminal statutes, and misuse of the logo to support the im-
     personation of a federal official also violates the criminal false personation
     statute. While nothing on NSF’s website implied that it was acceptable to
     use NSF’s logo to misrepresent employment by or affiliation with NSF, we
     recommended that NSF clearly prohibit such misuse, while specifying what
     use is appropriate. NSF agreed in principle, conducted a review of its logo
     usage policies, drafted a logo usage guide, and plans to post this guide on
     its website within the next few months.


Former Research Center Employee Sentenced to 32 months in
Federal Prison

As reported previously,12 on March 5, 2008 a former accountant at a Georgia
state university was indicted in the U.S. District Court for the Northern District
of Georgia on 17 counts of mail fraud and 5 counts of theft from an organization
receiving federal funds, 18 U.S.C. §§ 1341 & 666. On May 13, the accountant
pled guilty to all of the charges, and in August 2008, a federal judge sentenced
her to federal prison for 32 months, 3 years supervised probation, 250 hours of
community service, and payment of restitution and fees totaling $319,074.

NSF Imposes Three-Year Debarment for Felony Conviction

NSF debarred a former professor at a Tennessee university for a period of
three years based on her conviction for making false statements to pay ex-
penses related to a personal consulting contract. As previously reported,13 the
professor admitted that she was responsible for charging the personal ex-
penses to NSF grant accounts and university accounts as legitimate expenses.
We recommended that the professor be debarred for five years.14

NSF Debars Two Former Employees of DC Institution for Criminal
Convictions for Abusing Purchase Cards

As previously reported,15 OIG recommended that NSF debar two former
accounting managers at a local grantee institution who were convicted for
engaging in a scheme to use official corporate purchase cards to pay for un-
authorized personal expenditures exceeding $100,000 each. Though they did
not embezzle federal funds, they were both responsible for management and
oversight of federal and non-federal funds. Moreover, their job histories made it
reasonable to expect that they will seek similar positions accounting for federal
funds in the future. NSF accepted our recommendation and debarred each
12   March 2008 Semiannual Report, pp.27-28.
13   September 2007 Semiannual Report, p.25.
14   March 2008 Semiannual Report, p.30.
15   March 2008 Semiannual Report, p.29.

                                                                                       29


Investigations


                  individual for a period of 3 years. Also, since this was the fourth embezzlement
                  case involving this institution, we recommended that NSF designate it a high-
                  risk institution, which it agreed to do.

                  Institution Returns Funds and Commits to Compliance Program

                  An institution in Colorado returned $27,258 to NSF as a result of our investiga-
                  tion of its award. OIG identified the award as part of an investigative proactive
                  review of awards with substantial participant support cost allocations in the NSF
                  award budget. The institution expended funds on unallowable expenses, in-
                  cluding alcohol for workshop participants; reallocated participant support funds
                  to cover employee salaries without the required prior, written NSF approval;
                  and charged the NSF award for indirect costs, even though the NSF award
                  letter expressly excluded indirect costs. We referred the matter to the U.S.
                  Attorney’s Office, whose negotiations with the institution resulted in a refund of
                  $27,258 to NSF with an assurance from the institution that should it ever receive
                  federal funds in the future, it will have a compliance program consistent with the
                  principles found in the Federal Sentencing Guidelines.16

                  ADMINISTRATIVE INVESTIGATIONS
                  Closer Scrutiny of NSF Senior Management Travel Warranted

                  A series of anonymous letters were sent to NSF employees and members of
                  the scientific community alleging that an NSF senior manager (subject) was
                  misusing NSF travel funds. Based on a review of his travel records and emails,
                  as well as two interviews with him, we determined he based NSF-funded travel
                  decisions, at least in part, on his desire to further personal relationships with
                  women, some of whom were affiliated with NSF. In addition, we found that he
                  lacked candor during the investigation by providing false or misleading informa-
                  tion. We referred the matter to NSF with a recommendation that NSF take
                  appropriate administrative action with regard to the subject.

                  Based on this case and another travel abuse case involving two senior NSF
                  officials that we are continuing to investigate, we also recommended that NSF
                  reiterate and reinforce its expectation that senior managers should act with the


                  highest level of integrity; develop, and issue policies clearly defining personal
                  and essential travel; and institute an annual training program to ensure travel
                  policies are articulated to all NSF employees. NSF’s response is pending.

                  Multiple Instances of Employee Abuse of NSF IT Resources Leads
                  to Discipline and Recommendations to NSF for Policy Changes

                  OIG recommended that NSF take immediate action to address numerous
                  reports of employees viewing pornography on their government computers.
                  The multiple investigations opened in the past few months, highlighted the need
                  for systemic corrective actions in order to reduce abuse of agency IT resources
                  16 The principles for establishing an effective compliance program that are found in the Federal Sentencing
                  Guidelines, were discussed in the September 2007 Semiannual Report, p. 28.


           30


                                                              OIG Semiannual Report     September 2008


and waste of official time. They also highlighted NSF’s need to increase the
visibility of NSF’s Office of Equal Opportunity Programs (OEOP) in order to
facilitate employee access as co-workers encounter IT abuse in the workplace
and to improve the agency’s internal response mechanism. These recom-
mendations stem from the following recent abuse investigations: six cases of
viewing, downloading, saving, and/or sharing pornographic images and videos,
and one case of extensive participation in pornographic chat websites and the
concomitant significant waste of official time. NSF’s policy on the personal use
of NSF IT resources states that the resources:

   are authorized for occasional personal use (excluding private business
   use) when the additional cost to the government is negligible and when
   the personal use is of reasonable duration and during personal time
   as much as possible so there is no interference with official business.
   Employees should consult with their supervisor if there is any question
   about “occasional” use or “negligible costs.” Any personal use of the
   agency’s property is subject to the overriding expectation that employ-
   ees will give the government a full day’s labor for a full day’s pay. . . .
   Employees may make use of the Internet and electronic mail for matters
   that are not official business provided that . . . the use is not offensive
   to coworkers or the public (such as sexually explicit or otherwise inap-
   propriate web sites)....

All NSF employees are required to complete IT Security Awareness Training
annually. That training reiterates the agency policies concerning the use of
government equipment and resources. In addition, NSF’s Ethics and Personnel
Manuals emphasize the duty of employees to behave ethically and “to adhere
to basic standards of integrity and decency.” In each of the following cases,
we referred our findings to NSF with a recommendation that it take appropriate
administrative action, and NSF responded to our referrals as noted below.

•				 We received information that an NSF senior official was viewing sexually
      explicit material on his NSF computer in violation of NSF’s computer use
      policies. We determined that, for the past two years, the employee had
      been repeatedly and excessively visiting pornographic websites and spend-
      ing up to 20 percent of his official work time viewing sexually explicit images
      and engaging in sexually explicit on-line “chats” with various women. Based
      on the employee’s salary we identified a potential loss of more than $58,000
      in employee compensation for that personal time.

   When interviewed, the employee acknowledged using his NSF computer
   to visit pornographic websites and admitted that he spent excessive time
   chatting with women at the sites during official government work hours. We
   determined that the employee charged more than $40,300 to his personal
   credit card over 24 months to cover the cost of participating in these on-line
   chats. We concluded that the employee’s activities adversely affected the
   workplace making it offensive and hostile. In response to our referral, the
   agency issued the employee a Notice of Proposed Removal, and then a
   Notice for Removal, after which he left NSF.




                                                                                        31


Investigations


                  •				 An NSF staff member reported that sounds overheard from a co-worker’
                        computer speakers suggested that the employee was viewing pornographic
                        videos. We reviewed the employee’s NSF computer drives and found
                        no evidence that the employee saved inappropriate images or videos.
                        However, we determined that the employee used his NSF computer to visit
                        a variety of pornographic websites on numerous occasions during official
                        work hours. We concluded that the employee’s perusal of such websites
                        during work time violated NSF policies. NSF action is pending.

                  •				 We substantiated an allegation that, an NSF employee continued to store
                        sexually explicit image files on his NSF computer despite having previously
                        received an official letter of reprimand for similar activity and for using peer-
                        to-peer software on his NSF computer,. We determined that the employee
                        also sent emails containing sexually explicit images and videos from his
                        NSF email account and—even after learning about our investigation—
                        continued to visit inappropriate, sexually-explicit sites during his official work
                        day. NSF action is pending.

                  Because of the number of inappropriate use cases that were investigated by
                  OIG, we selectively sampled only one of NSF’s numerous network drives for
                  large files and reviewed a limited number of these files to see if we could deter-
                  mine if employees were violating NSF’s computer use policies. We identified:

                  •				 An NSF employee whose network drive contained numerous sexually
                        explicit image files. The employee acknowledged that accessing such files
                        was in violation of NSF’s computer use policies. NSF’s action is pending.

                  •				 An NSF employee who violated NSF’s computer use policy by download-
                        ing and storing inappropriate images on her NSF computer drive. When
                        interviewed, the employee explained that these files were mistakenly
                        downloaded along with other image files. We determined that the employee
                        violated NSF policies and referred the matter to NSF for action. NSF
                        verbally reprimanded the employee.

                  •	 An employee whose network drive contained numerous sexually explicit
                     media files, two copies of peer-to-peer file sharing software, and website
                     favorites (bookmarks) with sexually descriptive titles. The employee
                     acknowledged saving the sexually explicit files on his network drive and
                     having peer-to-peer software. Based on our referral, NSF suspended the
                     employee for 10 days.

                  •				 An employee17 who violated NSF computer use policies by downloading a
                        large number of sexually explicit media files. We referred the matter to NSF
                        for appropriate action, which resulted in the employee serving a 10-day
                        suspension.

                  While these cases show that such misbehavior occurs at NSF, the limited
                  nature of this sampling and its restriction to only one computer drive (and
                  excluding other systems like e-mail) cannot measure the actual extent of such
                  misbehavior at NSF. More importantly, these instances of misconduct occurred
                  despite the fact that each of the subjects had completed years of mandatory
                  17 Initially reported in our March 2008 Semiannual Report, p.30.


           32


                                                             OIG Semiannual Report    September 2008


NSF annual IT Security Awareness Training, which discusses the appropriate
use of NSF resources and provides specific examples of inappropriate use.
These cases do call into question the efficacy of that training as a deterrent to
resource abuse and misconduct, and as a means for communicating to NSF
employees the acceptable uses and restrictions NSF places on its computer
and communications resources.

Our small sampling of this single network drive for employees found that
although NSF policy allows de minimus personal use of government computers,
NSF has failed to identify or enforce any upper limit on such use. NSF data
showed that the top 10% of employee network drive users stored from 11 to 62
gigabytes on this drive. Further, when we looked at storage of only media files
(audio, video, or image) on this drive, the storage by the top 1% of employees
contained 2.7 to 43.5 gigabytes of data. Unlike many federal agencies, NSF did
not have internet filtering software to block access to inappropriate websites. In
conjunction with our review, the agency has now installed filtering software.

Our review also suggested that coworkers who inadvertently encountering
explicit images and sounds were accutely embarassed and did not know how
to immediately respond. We found information on how to address negative
worklife situations at NSF hard to find. Employees should be encouraged to
contact the Office of Equal Opportunity Programs (OEOP), if they encounter
behavior that makes them uncomfortable. At the time of review, it was even
difficult to find electronic links to OEOP on NSF’s external internet and internal
intranet websites.

To limit future occurrences of this type of abuse, we recommended: 1) changes
in NSF’s IT training; 2) limitation of server storage available to employees;
3) routine screening for and deletion of personal music and image files from
network drives; 4) procurement of necessary filtering software; and 5) increased
visibility of OEOP and enhancement of access to its website.

In response, management has now installed filtering software but informs OIG
it will not monitor either unsuccessful attempts by users to access inappropriate
sites or the existence of inappropriate content on NSF servers. It is considering
ways to improve its IT Security Training, but declines to limit the electronic
storage space available for employee personal use because such storage is
inexpensive (even though employees do not need such quantities for business
use). NSF stated that it has corrected the staffing information on the OEOP
website, corrected broken electronic links to OEOP, and that it plans to improve

access to and the visibility of OEOP. It also plans to evaluate its EEO training
to ensure that all managers and staff are aware of the relevant policies and
procedures. Finally, it has recently reissued its Personal Use Policy with explicit
statements about liability for abuse.




                                                                                      33


Investigations


                  Other Significant Investigative Activities

                  The following cases were resolved without referrals to the Department of
                  Justice because the institutions voluntarily returned funds they deemed to be
                  mischarged:

                  •	 OIG received an allegation of erroneous salary charges to an NSF award at
                     a university in North Carolina. Documents provided by the university re-
                     vealed a high incidence of a failure to comply with NSF’s “two-ninth’s rule.”
                     This rule states that, during summer months, a researcher may not receive,
                     from all NSF sources, more than two-ninths of his/her base salary. We
                     requested that the institution conduct a university-wide audit to assess the
                     degree to which this NSF rule was violated. The university concluded it had
                     mischarged over $250,000 to NSF awards, which the university reimbursed
                     or credited back to active NSF grants.

                  •	 We found that a for-profit company in New York overcharged NSF $12,726,
                     due to its use of an inflated indirect cost rate. Initially, there was suspicion
                     that the overcharges were a deliberate overbilling of a PI’s time, but our
                     investigation concluded that the overcharging was a mistake and the com-
                     pany returned $12,726 to NSF.

                  •	 Our investigation into a Maryland university’s misuse of participant support
                     funds resulted in the university’s reclassification of $7,400 in questionable
                     costs and a refund of $2,300 to NSF for unallowable costs related to alcohol
                     purchases. The university also implemented new guidelines and training for
                     all departments to better manage sponsored awards.

                  •	 A Georgia institution returned $4,666 to NSF in undocumented and/or
                     improperly claimed costs as a result of our investigation of numerous allega-
                     tions involving a closed NSF award. The initial allegations also included
                     failure to provide the required cost sharing, which were found to be untrue.
                     However, we noted that the university failed to provide annual certifications
                     for its cost sharing commitment as required explicitly in the terms of the
                     award. We informed the institution of our findings about its inconsistent
                     record retention practices and referred our concerns about their internal
                     controls to our Office of Audit.

                  OIG Recommends NSF Improve Information Provided to Determine
                  Conflicts of Interests

                  OIG regularly receives allegations of conflict of interests (COI) violations regard-
                  ing NSF’s merit review process. In the course of resolving recent complaints,
                  we noticed an inconsistency in how NSF handles COI disclosures for ad hoc
                  (i.e., remote) reviewers and COI disclosures for panelists (on-site reviews).
                  Panelists are given a COI briefing before discussing proposals. In addition,
                  panelists are given a form which provides examples of what may constitute a
                  COI and asks them to review the list of potentially conflicting affiliations and
                  relationships and to certify that they have none.




           34


                                                             OIG Semiannual Report    September 2008


In contrast, ad hoc reviewers are asked within FastLane, to describe any affili-
ation or financial connection they may have with the particular proposal. There
is no guidance or examples provided in FastLane for the ad hoc reviewer as to
what may constitute a potential affiliation or financial COI. This lack of informa-
tion for ad hoc reviewers creates a situation in which NSF may not be informed
of potential COIs that would taint NSF’s merit review. The National Institutes
of Health’s (NIH’s) proposal review process provides both panelists and ad
hoc reviewers with a form that details COI concerns and provides examples of
potential COIs.

We recommended that NSF: (1) make minor changes to its COI form by
(i) including in the certification language that reviewers have disclosed all COIs
and (ii) incorporating a legal warning about the consequences of violating the
certification; (2) incorporate more helpful information for ad hoc reviewers, and
provide an improved form in FastLane that requires ad hoc reviewers to check
a box indicating their certification before having access to proposals; and (3)
better inform its community and its program officials about COIs by creating
a COI FAQ web page and creating web-based tutorials for both PIs and NSF
program officials. After receiving an extension, NSF provided its response to
our recommendations after the end of the semiannual period. We will discuss it
in the next Semiannual Report.

Proper Scholarship and Attribution

Our office has recently observed an increase in research misconduct allega-
tions involving inaccuracies in data, especially as they are presented in figure
form. We have seen several cases where PIs have not made clear the full
details of how an image was constructed, such that it can deceive the reader
as to what the figure actually represents. Simultaneously, we have seen an
increased awareness by professional journals clarifying their expectations with
regard to data presentation, particularly images. While NSF’s Grant Proposal
Guide (GPG) explains that NSF expects strict adherence to the rules of proper
scholarship and attribution, the current guidance is silent concerning the schol-
arly presentation of data, figures, graphs, and images.

We recommended NSF change the language in the GPG to alert PIs to its
expectation that they prepare proposals with at least the same care as they
would a peer reviewed publication as well as to clarify to PIs that the expecta-
tion applies to text, data, figures, and images. NSF proposed changes to the
GPG language to ensure that readers understand that fabrication and falsifica-
tion, as well as plagiarism, are research misconduct. The GPG will clearly state
that NSF expects strict adherence to the rules of both proper scholarship and
attribution in submitted proposals.




                                                                                      35


Investigations


                  RESEARCH MISCONDUCT INVESTIGATIONS
                  Actions by NSF Management

                  NSF Debars PI for Plagiarism and Abuse of NSF’s Peer Review Pro-
                  cess, and University Adopts New Research Misconduct Policy

                  An OIG investigation into an allegation of plagiarism, determined that a PI from
                  a South Carolina university, plagiarized material from a proposal he received
                  from NSF for peer review into his own NSF proposal. Our initial assessment of
                  the proposal indicated that it contained text copied from three internet sources
                  and a substantial amount of text copied from a confidential proposal the PI had
                  peer reviewed a year earlier. Because the proposal with plagiarized text was
                  highly rated and likely to soon be funded, we immediately interviewed the PI,
                  who admitted keeping a copy of the reviewed proposal and plagiarizing from
                  it in the preparation of his proposal. Regarding the material copied from the
                  internet sources, he acknowledged copying a small amount, saying his students
                  had provided him with the bulk of that material. He withdrew his pending NSF
                  proposal.

                  We referred the allegation to his university for investigation. Since the PI
                  admitted to copying, the university concluded that the PI plagiarized and no
                  investigation was necessary. Its investigation report was poorly written and did
                  not address specific questions we asked the committee to answer. We notified
                  the university that we could not accept its report and would conduct our own
                  investigation.

                  Based on a review of all the facts, our investigators concluded that the PI
                  purposefully plagiarized a substantial amount of text from the confidential pro-
                  posal he reviewed, and knowingly plagiarized a small amount of text from one
                  internet source. The Deputy Director: made a finding of research misconduct;
                  debarred the PI for 1 year; required the PI to provide certifications for 3 years
                  after the debarment; and prohibited the PI from reviewing proposals for 3 years.

                  Both the university and the PI used this experience as an opportunity to
                  learn and make improvements. The university wrote and implemented a
                  new research misconduct policy to facilitate better investigations, appointed
                  a Research Integrity Officer, and strengthened its ethics center. The PI and
                  his graduate students voluntarily completed a research ethics course and a
                  separate course on plagiarism. The PI has worked within his department to
                  raise awareness of plagiarism.

                  OIG Disagrees with Institution Regarding Severity of PI’s Plagiarism

                  A PI from an Illinois institution plagiarized text and citations from multiple source
                  documents into four NSF proposals. Our office initiated an inquiry based on an
                  allegation that a PI plagiarized into three proposals. During the inquiry, the PI
                  stated he had permission to use some of the text, and he claimed he had not
                  paid close attention to work by his students that he incorporated into some of
                  the proposals. We were not persuaded by the PI’s explanation of events, and
                  decided to refer the investigation to his institution.


           36


                                                             OIG Semiannual Report    September 2008


The institution’s inquiry committee reviewed the matter and determined there
was no misconduct because: 1) the plagiarism was in the background section
of the proposals; 2) none of the proposals was funded; 3) the PI admitted his
mistake; and 4) the PI had received permission, albeit after the fact, to use
much of the material. The institution counseled the PI, closed the case, and
recommended no sanctions be imposed.

After carefully reviewing its report, we determined that the institution’s inquiry
was not sufficiently thorough. The committee did not verify the PI’s explanation
that he used his students’ project reports in copying the material, and it did not
look into what the PI told the authors of some of the source documents when he
sought and received after-the-fact permission to use their text.

We initiated our own investigation, and discovered a fourth proposal that con-
tained a significant amount of copied text, which the PI also failed to adequately
explain. We contacted the authors of two source documents that according to
the PI, had given him after-the-fact permission for him to use portions of their
text. Both authors responded with deep concern and surprise at the amount of
copied text involved, and both said that the PI had not adequately described the
full degree of copying.

We concluded that the PI committed research misconduct when he plagiarized
text in four NSF proposals. NSF agreed with our recommended finding,
debarred the subject for one year, required certifications and assurances for 3
years, barred him from peer review for 3 yrs, and required him to complete a
course in research ethics.

PI Plagiarizes from His Doctoral Student’s Fellowship Proposal

A Utah university received an allegation that a professor took an unfunded
postdoctoral fellowship grant his former doctoral student wrote, copied the
text, made a few minor changes, and submitted the proposal to NSF as sole
PI. The professor’s proposal, which was funded by NSF, did not acknowledge
the student, and the student was apparently unaware of its submission. The
university’s inquiry concluded a full investigation was warranted.

The university’s investigation committee found a preponderance of the evidence
proved the subject recklessly plagiarized the student’s words. The committee,
however, found insufficient evidence to substantiate the allegation of intellectual
theft. The subject resigned from the university and the university took no
further action. The university terminated the award prior to the expenditure of
any funds, and NSF was able to put the $120,000 to better use.

As a part of our investigation, the subject provided evidence that some of the
text within the NSF proposal was also included in a paper jointly authored by
the subject and the graduate student. This slightly mitigated the severity of the
subject’s actions. However, we concurred with the university’s findings and
recommended that NSF: 1) make a finding of research misconduct against the
subject; 2) send the subject a letter of reprimand; 3) require certifications and
assurances for 2 years; and 4) require certification of attending an ethics class.
The Deputy Director concurred with our recommendation to make a finding of
research misconduct and required the subject to attend an ethics class.

                                                                                      37


Investigations


                  PI Copies Text from Anonymous Peer Reviews into his Proposal

                  OIG received an allegation that an assistant professor at a North Dakota
                  university submitted a proposal containing plagiarism. Our inquiry determined
                  that a couple of pages of text were identical to material from 13 sources within
                  3 declined proposals. Four of the sources from which the subject allegedly
                  copied text were anonymous peer reviews by NSF reviewers.
                  We referred the allegation to the subject’s university for investigation. The uni-
                  versity’s investigation committee concluded a preponderance of the evidence
                  proved the subject knowingly committed plagiarism, and the university imposed
                  a variety of administrative actions on him. We concurred with the university’s
                  findings and recommended that NSF: make a finding of research misconduct
                  against the subject; send the subject a letter of reprimand; require certifications
                  and assurances for 2 years; and require certification of attending an ethics
                  class. NSF’s Deputy Director concurred with our recommendations.

                  Research Misconduct Findings Made Against New Faculty Member
                  and a Graduate Student

                  NSF’s Deputy Director took action on two cases reported in previous Semian-
                  nual Reports in which we recommended that NSF make a finding of research
                  misconduct. The first involved a new faculty member at a Pennsylvania
                  institution who plagiarized text into his first NSF proposal.18 The Deputy Direc-
                  tor applied the following sanctions: issued a letter of reprimand notifying the
                  faculty member of the finding of research misconduct; required completion of
                  an ethics course; required certifications and assurances for 2 years; and barred
                  the faculty member from serving NSF in an advisory capacity for 2 years.

                  In the second case, a masters student at a Washington university fabricated
                  data in her thesis while receiving NSF funds.19 The Deputy Director: issued
                  a letter of reprimand containing a finding of research misconduct; proposed
                  debarment for 3 years; required certifications and assurances for 3 years
                  following the debarment; required completion of an ethics course covering
                  the proper handling of data; and banned the student from serving NSF in an
                  advisory capacity for 3 years.

                  Research Misconduct Reports of Investigation Forwarded to NSF
                  Management

                  In each of the following cases, OIG has forwarded a report of investigation
                  with recommendations that NSF’s Deputy Director make a finding of research
                  misconduct and take appropriate administrative actions. The Deputy Director
                  has not yet acted on our recommendations.




                  18 March 2008 Semiannual Report, pp.33-34.
                  19 March 2008 Semiannual Report, p.33.


           38
	
             
	
                                                               OIG Semiannual Report     September 2008


Student’s Plagiarism Adversely Affects the Careers of Mentors in
Two Countries

A foreign doctoral student at a Washington state institution, published a paper
derived from his graduate research in an online journal but omitted any refer-
ence to or acknowledgement of his co-author and faculty doctoral advisor, who
was the PI on the NSF award that supported the research. Further, the student
entered data related to the research in an online database, again without
acknowledging the PI.

Seeking to interview the student, OIG was informed by the U.S. institution that
he had abruptly quit its doctoral program and returned to his home country.
Once there, the student rejoined the laboratory of his Master’s advisor. Shortly
thereafter the student published an article, identifying himself, his Master’s
advisor, and four other home country scientists as authors. He also entered the
data in an online database, attributed to his Master’s advisor. In fact, the data
had been gathered in the PI’s laboratory and none of the named coauthors had
participated in the research. Once informed about this, the Master’s advisor
ensured the paper and data were withdrawn.

OIG referred both the inquiry and subsequent investigation to the U.S. institu-
tion. It concluded that the student and his Master’s advisor shared responsibil-
ity for the student’s actions. However, as part of our subsequent investigation,
we determined that the U.S. institution’s investigation had not considered key
evidence that was inexplicably omitted from its review of the PI’s computer
documents. The evidence substantially invalidated the committee’s conclusions
and appeared to absolve the advisor from any responsibility. Unfortunately, the
U.S. institution had already provided its report to the Master’s advisor’s institu-
tion, which reprimanded him, restricted his access to institution grant funds, and
dismissed the student from the institution.

At our urging, the U.S. institution rescinded the findings of its first investigation,
informed the Master’s advisor’s institution, and initiated a new investigation. It
recused its Research Integrity Officer to ensure the complete objectivity of the
second effort. The absence of the key evidence in the PI’s possession sug-
gested that he may have tried to mislead the first investigation committee. As a
result, the institution initiated a separate inquiry into the PI’s actions.

The U.S. institution’s second investigation was thorough and complete, and
concluded that the graduate student alone was responsible for the plagiarism.
Its inquiry into the PI’s actions showed that the institution had failed to gather all
relevant available electronic information from the PI’s laboratory. We concurred
with both conclusions and determined that if the PI had been more forthcoming
with information, the first committee might have relied on the correct evidence
in reaching its conclusions.

We consider the student’s actions to be among the most egregious acts
encountered in a research misconduct case. The student’s actions not only de-
stroyed any possible working relationship between what had been two collabo-
rating senior investigators and their students, it resulted in the PI’s inability to
publish the data. It was the impetus for events which ultimately led to a flawed


                                                                                         39


Investigations


                  investigation that damaged the reputations of both senior investigators. As a
                  positive consequence of these events, the U.S. institution has improved both its
                  responsible professional practices training and its investigative processes.

                  We recommended that NSF make a finding of research misconduct against the
                  student, send him a letter of reprimand, and debar him for 5 years.

                  Researcher Copies Text and Figures into Multiple SBIR Proposals

                  An allegation of extensive plagiarism in multiple SBIR proposals submitted by a
                  Florida researcher over a 5-year period was confirmed by an OIG investigation.
                  When contacted, the subject acknowledged an “oversight” for not providing
                  citations and references to numerous source documents from which text and
                  figures were copied into her proposals. But in fact, the evidence supports an
                  extensive pattern of “cut-and-paste” plagiarism from print and web sources.
                  Extensive plagiarism was even found in a new proposal the subject submitted
                  while our investigation was ongoing.

                  We recommended NSF make a finding of research misconduct against the
                  subject; send the subject a letter of reprimand; debar the subject for a period
                  of 2 years; require the subject submit certifications for 2 years after debarment
                  ends; require the subject’s employer submit assurances for 2 years after
                  debarment ends; prohibit the subject from serving as a merit reviewer of NSF
                  proposals for 2 years after debarment ends; and require the subject to provide
                  certification for completion of a course in ethics training.

                  PI Plagiarizes Work Plan into Funded SGER Proposal

                  An associate professor (the subject) at a Texas university plagiarized into
                  seven separate proposals submitted to NSF. Our inquiry determined that a
                  total of 269 lines, 4 figures and captions, and 19 references were copied into
                  3 awarded and 3 declined NSF proposals. One of the awarded proposals was
                  a SGER award for $55,352. After receiving the subject’s institution’s report
                  of investigation, we discovered that the subject had plagiarized text into an
                  awarded proposal he submitted during our ongoing investigation.

                  When interviewed regarding the plagiarism contained within the SGER
                  proposal, the cognizant program officer said he made the award because he
                  thought the idea the subject presented to him both in person and in writing
                  was original. His statement was evidence that a material misrepresentation
                  in the proposal was instrumental in making an award of federal funds. We
                  referred the case to the U.S. Attorney’s Office, which declined prosecution in
                  lieu of strong administrative actions by NSF because the subject did not receive
                  personal financial benefit from the SGER award.

                  We recommended NSF: make a finding of research misconduct against the
                  subject; send the subject a letter of reprimand; debar the subject for 2 years;
                  require certifications and assurances for 2 years; bar the subject from serving
                  as an NSF reviewer for 3 years; and require certification of attending an ethics
                  class.



           40


                                                             OIG Semiannual Report   September 2008


PI Plagiarizes Online Materials into His NSF Proposal

An OIG investigation concluded that a Virginia PI plagiarized text from multiple
source documents into one NSF proposal. The institution’s investigation com-
mittee concluded that, although the PI knowingly included material from online
sources, he did not understand the significance of including this material as part
of the proposal without appropriate citation.

Based on the university’s comprehensive report, we concluded the PI commit-
ted research misconduct and recommended NSF: 1) send a letter of reprimand
to the PI informing him that NSF has made a finding of research misconduct; 2)
require him to certify to NSF’s OIG that proposals he submits to NSF for 2 years
from the date of the letter of reprimand do not contain plagiarized, falsified, or
fabricated material; 3) require the subject submit assurances by a responsible
official of his employer to the OIG that any proposals or reports submitted to
NSF do not contain plagiarized, falsified, or fabricated material for 2 years and
4) direct him to attend a course in research ethics and provide documentation to
the OIG upon completion. NSF’s adjudication is pending.

Institution Discovers PI’s Plagiarism Was Part of an Extensive
Pattern

A PI from a Pennsylvania university plagiarized text from multiple source docu-
ments into two NSF proposals. As part of its investigation, the PI’s institution
concluded that, in addition to the two NSF proposals, the PI also had submitted
three proposals containing plagiarized text to other agencies and funding
organizations.

Based on the university’s investigation, we concluded the PI committed
research misconduct and recommended NSF 1) send a letter of reprimand to
the PI informing him NSF has made a finding of research misconduct; 2) require
him to certify to NSF’s OIG that proposals he submits to NSF for 2 years from
the date of NSF’s letter of reprimand do not contain plagiarized, falsified, or
fabricated material; and 3) direct him to attend a course in research ethics.

Former Professor Plagiarized into an NSF Proposal

OIG launched an inquiry into an allegation that a subject submitted a proposal
containing plagiarism while employed as an assistant professor in an Indiana
university. The inquiry identified plagiarized material in four proposals, and we
initiated an investigation.

The subject of the investigation, who was no longer employed at the university,
provided adequate documentation to show she had rightful use to text copied
in three of the four proposals. However, she did not dispute the copying of text
into the fourth proposal. Our investigation concluded by a preponderance of
the evidence that the subject knowingly plagiarized from four sources in one
proposal.

We recommended NSF: make a finding of research misconduct against the
subject; send the subject a letter of reprimand; require certifications and assur-
ances for one year; and require certification of attending an ethics class.
                                                                                     41


Investigations


                  Faculty Member Unsuccessfully Passes Blame to Students for
                  Plagiarism

                  A faculty member at a university in Michigan knowingly copied plagiarized ma-
                  terial from his students into his NSF proposal and when questioned, deflected
                  the blame for his misconduct to them. The university’s investigation concluded
                  that the faculty member committed research misconduct by plagiarizing 60% of
                  the copied text from a student’s thesis.

                  With respect to the remaining copied text, we learned that a second student
                  provided the faculty member (who was also his mentor) with the plagiarized
                  text, knowing the material would be used in a proposal requesting support
                  for his dissertation. Like the first student, this student is a non-native English
                  speaker with little or no training in presenting scientific material in English. The
                  university concluded that the student lacked sufficient knowledge of the need
                  for and mechanics of proper attribution, thus making him incapable of having
                  the minimal level of intent for a finding of misconduct. Noting that as a univer-
                  sity it did not provide the student with sufficient training, the university has taken
                  steps to educate its students about appropriate citation. We agreed that under
                  the circumstances of this case, this student did not have the requisite intent for
                  a finding of research misconduct.

                  We forwarded our recommendation to NSF for a finding of research misconduct
                  against the faculty member for knowingly plagiarizing material from his student’s
                  thesis and recommended that NSF send a letter of reprimand to the faculty
                  member, ban the faculty member from serving NSF in an advisory capacity for
                  2 years, and require the faculty member to: 1) for 1 year, submit a description
                  of his plans for training his students and postdoctoral associates in conjunction
                  with any proposal he submits to NSF; 2) for 1 year, submit certifications by him
                  and assurances by a responsible official at his employer each time he submits
                  proposal or reports to NSF stating the documents do not contain plagiarism,
                  falsification, or fabrication; 3) submit within 1 year a certification of completion
                  of a course in research ethics; and 4) certify retraction of a proceedings paper
                  also containing the unattributed plagiarized text.

                  Professor Copies Text from a Proposal He Peer Reviewed

                  A senior professor at a New Jersey university inappropriately retained a copy of
                  a proposal he reviewed for NSF, and copied text from it into his own proposal,
                  which he submitted to NSF the following year. The copied material first
                  appeared in the subject’s original proposal, and again in subsequent resubmis-
                  sions of the same proposal.

                  Based on the university’s report of investigation, we recommended that NSF:
                  make a finding of research misconduct against the subject; send the subject a
                  letter of reprimand; require the subject to submit certifications for 1 year; require
                  the subject’s employer to submit assurances for 1 year; prohibit the subject from
                  serving as a reviewer of NSF proposals for 2 years; and require the subject to
                  provide certification for completion of a course in ethics training. A decision on
                  this matter is pending.



           42


                                                        OIG Semiannual Report     September 2008



                                                  Statistical Data
     Audit Reports Issued with Recommendations for Better Use of Funds

                                                                                Dollar Value

A.   For which no management decision has been made by the
     commencement of the reporting period                                         $1,945,240

B.   Recommendations that were issued during the reporting period                          $0

C.   Adjustments related to prior recommendations                                          $0

Subtotal of A+B+C                                                                 $1,945,240

D.   For which a management decision was made during the reporting                         $0
     period

     i)    Dollar value of management decisions that were consistent with                  $0
           OIG recommendations

     ii)   Dollar value of recommendations that were not agreed to by                      $0
           management

E.   For which no management decision had been made by the end of                 $1,945,240
     the reporting period

For which no management decision was made within 6 months of issuance             $1,945,240




                                                                                  43


Statistical Data


                        Audit Reports Issued with Questioned Costs

                                                          Number    Questioned    Unsupported
                                                            of        Costs          Costs
                                                          Reports

  A.    For which no management decision has been           26      $63,905,096   $2,736,680
        made by the commencement of the reporting
        period

  B.    That were issued during the reporting period        13      $5,312,565    $4,331,984


  C.    Adjustment related to prior                         1        ($1,547)         $0
        recommendations

 Subtotal of A+B+C                                                  $69,216,114   $7,068,664

  D.    For which a management decision was made            18      $1,479,223     $491,302
        during the reporting period

            i)     dollar value of disallowed costs        N/A       $648,073        N/A
            ii)    dollar value of costs not disallowed    N/A       $831,150        N/A

  E.    For which no management decision had been           21      $67,736,891   $6,577,362
        made by the end of the reporting period

   For which no management decision was made                10      $62,425,521   $2,245,379
   within 6 months of issuance




            44


                                                           OIG Semiannual Report   September 2008


                    Audit Reports Involving Cost-Sharing Shortfalls

                                              Number      Cost-        At Risk     Actual Cost
                                                of       Sharing       of Cost       Sharing
                                              Reports   Promised       Sharing      Shortfalls
                                                                       Shortfall   (Completed
                                                                      (Ongoing       Project)
                                                                       Project)


 A.   Reports with monetary findings for        2       $4,680,264    $284,938       $64,730
      which no management decision has
      been made by the beginning of the
      reporting period:


 B.   Reports with monetary findings that       2       $1,250,000     $12,971      $988,806
      were issued during the reporting
      period:


 C.   Adjustments related to prior recom-       0          $0            $0               $0
      mendations


Total of reports with cost sharing findings     4       $5,930,264    $297,909     $1,053,536
(A+B+C)


 D.   For which a management decision           1       $4,680,264    $284,938            $0
      was made during the reporting
      period:


      1.Dollar value of cost-sharing            1       $4,680,264    $284,938            $0
      shortfall that grantee agreed to
      provide


      2.Dollar value of cost-sharing            1       $4,680,264       $0               $0
      shortfall that management waived


 E.   Reports with monetary findings for        3       $1,250,000     $12,971     $1,053,536
      which no management decision
      has been made by the end of the
      reporting period




                                                                                   45


Statistical Data


                               Status of Recommendations that Involve
                                Internal NSF Management Operations

  Open Recommendations (as of 3/31/2008)

    Recommendations Open at the Beginning of the Reporting Period                                              76

    New Recommendations Made During Reporting Period                                                            5

    Total Recommendations to be Addressed                                                                      81

  Management Resolution of Recommendations1

    Awaiting Resolution                                                                                        22

    Resolved Consistent With OIG Recommendations
                                                                                                               59

  Management Decision That No Action is Required                                                                0

  Final Action on OIG Recommendations2

    Final Action Completed                                                                                     12

  Recommendations Open at End of Period                                                                        69



                                    Aging of Open Recommendations

    Awaiting Management Resolution:

      0 through 6 months                                                                                        5

      7 through 12 months                                                                                      13

      More than 12 months                                                                                       4

  Awaiting Final Action After Resolution

      0 through 6 months                                                                                        0

      7 through 12 months                                                                                      33

      More than 12 months                                                                                      14




1 “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be 

implemented in response to the audit recommendations.
	
	
2 “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.
	
	


            46
                                                         OIG Semiannual Report   September 2008


                                    List of Reports
                            NSF and CPA Performed Reviews

Report     Subject                              Questioned    Unsupported    Better     Cost
Number                                          Costs         Costs          Use of     Sharing
                                                                             Funds      At-Risk
08-1-009   School District of Philadelphia       $4,160,047     $3,333,309       $0          $0
08-1-010   University of California-San Diego      $85,128             $0        $0          $0
           Effort Reporting System
08-1-011   WestEd                                $1,011,602      $988,806        $0          $0
08-1-014   Vanderbilt University Effort            $31,325             $0        $0          $0
           Reporting System
08-2-005   Audit of Large Facility Operation
           Agreements
08-2-006   AUP IODP International Drilling              $0             $0        $0          $0
           Program
08-2-008   FISMA 2008 Independent Evaluation            $0             $0        $0          $0
           Report
08-2-009   FY2008 FISMA Independent
           Evaluation Summary
08-3-002   Internal Quality Control Review              $0             $0        $0          $0
           for Centers 1 #08-2-002 NSF’s
           Oversight of Centers
08-6-002   Abt Associates FY2003 Incurred               $0             $0        $0          $0
           Cost
08-6-003   WHOI Indirect Costs Woods Hole
           Oceanographic Institution
            Total:                               $5,288,102     $4,322,115       $0          $0




                                                                                 47


Statistical Data


                                       NSF-Cognizant Reports

  Report                     Subject                 Questioned   Unsupported    Cost Sharing
  Number                                               Costs         Costs         At-Risk
  08-4-019     6-05 School District of Riverview             $0             $0             $0
               Gardens - MO
  08-4-030     6-06 Computing Research                       $0             $0             $0
               Association, Inc. – DC
  08-4-049     8-06 Twin Cities Public Television,           $0             $0             $0
               Inc. – MN
  08-4-050     12-05 CRDF US Civilian Research               $0             $0             $0
               & Development Foundation – VA
  08-4-051     12-06 CRDF US Civilian Research               $0             $0             $0
               & Development Foundation – VA
  08-4-052     12-06 AMS American                            $0             $0             $0
               Meteorological Society – MA
  08-4-053     12-06 AGI American Geological                 $0             $0             $0
               Institute – VA
  08-4-054     12-06 Biological Sciences                     $0             $0             $0
               Curriculum Study, Inc. – CO
  08-4-055     9-06 Kentucky Science &                       $0             $0             $0
               Technology Corporation
  08-4-056     6-06 MPC Corporation – PA                     $0             $0             $0
  08-4-057     6-07 William March Rice                       $0             $0             $0
               University – TX
  08-4-058     6-06 Maine Mathematics & Science              $0             $0             $0
               Alliance
  08-4-059     6-07 Franklin W. Olin College of              $0             $0             $0
               engineering – MA
  08-4-060     9-06 URA Universities Research                $0             $0             $0
               Association, Inc. – DC
  08-4-061     12-06 American Association of                 $0             $0             $0
               Community Colleges – DC
  08-4-062     12-06 American Institute of                   $0             $0             $0
               Physics – MD
  08-4-063     9-06 Museum of Science, Inc. – FL             $0             $0             $0
  08-4-064     6-07 Institute of Ecosystem                   $0             $0             $0
               Studies - NY
  08-4-066     6-07 Keck Graduate Institute of               $0             $0             $0
               Applied Life Sciences – CA
  08-4-067     6-07 Southwest Center for                     $0             $0             $0
               Educational Excellence - MO
  08-4-068     6-07 Harrisburg University of                 $0             $0             $0
               Science & Technology - PA
  08-4-070     6-05 Town of Hudson – MA                      $0             $0             $0
  08-4-071     9-05 NEES Consortium, Inc. – CA               $0             $0             $0
  08-4-072     9-06 NEES Consortium, Inc. - CA               $0             $0              $0


             48
	
               
	
                                                  OIG Semiannual Report   September 2008




08-4-073   12-06 AIM American Institute of       $0                 $0              $0
           Mathematics – CA
08-4-074   6-06 Museum of Science – MA           $0                 $0              $0
08-4-075   6-07 Museum of Science – MA           $0                 $0              $0

08-4-076   12-06 American Association of         $0                 $0              $0
           Physics Teachers, Inc. – MD
08-4-077   6-06 Show Low Unified School          $0                 $0              $0
           district #10 – AZ
08-4-078   6-06 Allegheny Intermediate           $0                 $0              $0
           Unit – PA
08-4-079   12-06 American Physical               $0                 $0              $0
           Society – MD
08-4-080   12-06 Association for Institutional   $0                 $0              $0
           Research – FL
08-4-081   12-06 TERC Technical Education        $0                 $0              $0
           Research Centers, Inc. – MA
08-4-082   6-06 Science Museum of Minnesota      $0                 $0              $0
08-4-083   9-07 UCAR University Corporation      $0                 $0              $0
           for Atmospheric Research – CO
08-4-084   6-07 Carnegie Institution of          $0                 $0              $0
           Washington – DC
08-4-086   6-07 American Museum of Natural       $0                 $0              $0
           History – NY
08-4-087   12-04 Systemic Research,              $0                 $0              $0
           Inc. – MA
08-4-088   12-05 Systemic Research,              $0                 $0              $0
           Inc. – MA
08-4-089   6-06 IRIS Incorporated Research       $0                 $0              $0
           Institutions for Seismology – DC
08-4-091   6-06 Stark County Educational         $0                 $0              $0
           Service Center – OH
08-4-093   8-07 WGBH Educational                 $0                 $0              $0
           Foundation – MA
08-4-094   8-07 American Bar Foundation - IL     $0                 $0              $0
08-4-097   9-07 AUI Associated Universities,
           Inc. - DC
           Total:                                $0                 $0              $0




                                                                          49


Statistical Data


                                            Other Federal Audits

   Report                         Subject                 Questioned    Unsupported    Cost Sharing
   Number                                                   Costs          Costs         At-Risk

  08-5-065         6-07 Youngstown State University -            $51             $0              $0
                   OH

  08-5-071         5-07 Our Lady of the Lake University        $1,712         $1,712             $0
                   of San Antonio - TX

  08-5-075         6-07 State of Utah                         $3,222              $              $0

  08-5-084         6-07 State of Montana                      $4,478              $              $0

  08-5-102         6-07 Eastern Michigan University           $1,000             $0              $0

  08-5-109         10-06 MITRE Corporation - MA                 $195             $0              $0

  08-5-117         6-07 University of Notre Dame du           $7,494          $2,696             $0
                   Lac – IN

  08-5-118         6-07 University of Medicine and              $850             $0              $0
                   Dentistry of New Jersey

  08-5-120         6-07 State of Florida                      $5,461          $5,461             $0

                   Total:                                    $24,463          $9,869             $0




             50


                                                                OIG Semiannual Report      September 2008


                Audit Reports with Outstanding Management Decisions

This section identifies audit reports involving questioned costs, where management had not
made a final decision on the corrective action necessary for report resolution within six months
of the report’s issue date. At the end of the reporting period there were ten reports remaining
that met this condition. The status of recommendations that involve internal NSF management
is described on page 46.



 Report       Subject                                   Questioned Costs         Unsupported Costs
 Number

 05-1-005     RPSC Costs Claimed FY2000 to 2002              $33,425,115*                  $0

 06-1-023     RPSC 2003/2204 Raytheon Polar                  $22,112,521*                  $0
              Services Company

 07-1-003     Triumph Tech, Inc.                               $80,740                   $1,192

 07-1-015     Supplemental schedule to #06-1-023               $560,376                    $0
              RPSC

 07-1-019     Abt Associates                                    $22,716                    $0

 08-1-001     WGBH Educational Foundation                      $808,383                  $6,737

 08-1-005     University of Illinois-Champaign Effort           $6,329                     $0
              Reporting System

 08-5-031     6-06 State of Louisiana                          $130,755                 $130,755

 08-5-034     6-06 Howard University – DC                      $292,910                 $211,059

 08-5-035     6-06 University of Missouri System              $4,986,676               $1,895,636
              Office

              Total:                                         $62,425,521               $2,245,379




* Final Resolution of a portion of these questioned costs awaits a decision from the Department of
Justice.


                                                                                           51
Statistical Data


                                            INVESTIGATIONS DATA
                                     (April 1, 2008 – September 30, 2008)


Civil/Criminal Investigative Activities

Referrals to Prosecutors                                             9
Criminal Convictions/Pleas                                           2
Civil Settlements                                                    0
Indictments/Information                                              1
Investigative Recoveries                                     $1,047,170.78


Administrative Investigative Activities

Referrals to NSF Management for Action                                 27
Research Misconduct Findings                                           6
Debarments                                                             3
Administrative Actions                                                 31
Certifications and Assurances Received20                               8


Investigative Case Statistics

                                                   Preliminary        Civil/Criminal Administrative

Active at Beginning of Period21                     41                 75                   63
Opened                                              93                 27                   32
Closed                                              89                 23                   35
Active at End of Period                             45                 79                   60




20 NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, 

the subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly 

submitted NSF proposal does not contain anything that violates NSF regulations.
	
	
21 Last period we reported 60 Preliminary cases and 67 C/C cases. During this period, a duplicate Preliminary case was deleted 

and a C/C case was closed which should have been counted as closed last period.
	
	




             52

                                                           OIG Semiannual Report    September 2008


           Freedom of Information Act and Privacy Act Requests
	
	
Our office responds to requests for information contained in our files under the freedom of
Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy Act (5 U.S.C. paragraph
552a). During this reporting period:

Requests Received                    23
Requests Processed                   23
Appeals Received                      2
Appeals Upheld                        2

Response time ranged between 1 day and 33 days, with the median around 13 days and the
average around 11 days.




                                                                                    53


Appendix




     54


                                                            Appendix


            Management Challenges Letter


October 16, 2008
	
                
	

MEMORANDUM
	
          
	

To:            Dr. Steven C. Beering
               Chair, National Science Board

               Dr. Arden Bement
               Director, National Science Foundation

From:          Dr. Christine C. Boesz
               Inspector General, National Science Foundation

Subject:       Management Challenges for NSF in FY 2009

In accordance with the Reports Consolidation Act of 2000, I am
submitting our annual statement summarizing what the Office of
Inspector General (OIG) considers to be the most serious manage-
ment and performance challenges facing the National Science
Foundation (NSF). We have compiled this list based on our audit
and investigative work, general knowledge of the agency’s opera-
tions, and the evaluative reports of others, such as the Government
Accountability Office and NSF’s various advisory committees,
contractors, and staff.

This year’s management challenges are again organized under five
broad issue areas: award administration; human capital; budget,
cost and performance integration; U.S. Antarctic Program; and
merit review. Twelve challenges appear on this year’s list, some of
which reflect areas of fundamental program risk that are likely to
require management’s attention for years to come. There are also
two new management challenges: international awards and ethical
conduct of research.

If you have any questions or need additional information, please call
me at 703-292-7100.




                                                                        55
Appendix


            Award and Contract Administration

            Post-award administration policies. An effective post-award administra-
            tion program for NSF grants should provide oversight for both financial and
            programmatic issues to ensure that awardees: 1) comply with terms, conditions,
            and regulations; 2) achieve expected progress toward accomplishing project
            goals; and 3) file accurate financial reports as required. Over the past six
            years, NSF has improved its monitoring of financial performance by implement-
            ing a risk-based system that directs more of the agency’s attention to high-risk
            awardees. In FY 2008, NSF reports that it assessed the performance of 29
            percent of grantees managing 93 percent of NSF funds. The challenge for
            the agency continues to be in improving its monitoring of programmatic perfor-
            mance. Since the primary responsibility of NSF’s program officers is selecting
            new awards, active awards frequently do not receive adequate attention. The
            program officers need more time, guidance, and training to carry out this
            important job in order to detect problems with an award in time to intervene.

            OIG has highlighted problems in administering cost sharing as a major man-
            agement challenge for NSF for the past 10 years. The agency’s decision in
            2004 to eliminate non-statutory cost sharing requirements effectively curtailed
            new cost sharing commitments but failed to address the issue of how to
            improve the poor documentation by grantees of cost sharing already in place.
            OIG estimates that despite the elimination of most new cost sharing, $126
            million in cost shared commitments remains active. This year the National Sci-
            ence Board, which was asked by Congress to review the impact of the agency’s
            elimination of most cost sharing, recommended that it be reinstated for specific
            programs. At the same time, the NSB noted the confusion among grantee
            institutions that surrounds cost sharing policies and their implementation, and
            emphasized the need for the agency to clearly communicate the requirements
            of tracking and reporting cost sharing to those institutions that undertake the
            commitment. The challenge for NSF is to put an effective outreach program in
            place that will assure that awardees understand and comply with the legal and
            auditing requirements that go along with cost sharing.

            Contract Administration. The administration and monitoring of contracts has
            been a management challenge for NSF in part because the agency has not
            had a comprehensive, risk-based system to facilitate its oversight of contracts
            and ensure that the requirements of each were being met. A timely and effec-
            tive post-award monitoring program is necessary to assure the accuracy and
            integrity of the contractor’s financial reports, and that it is otherwise performing
            as agreed. Since contract monitoring was first cited as a deficiency by the
            agency’s financial statement auditors in FY 2004, the agency has improved its
            contracting policies and procedures each year. During FY 2008, the agency
            completed an update of its contracting manual, which strengthened its guid-
            ance regarding post-award monitoring, risk-assessment, and risk-mitigation
            procedures. Over the next year NSF will undertake another significant chal-
            lenge as its $1.3 billion contract to perform logistics, support, operations, and
            maintenance of NSF activities in Antarctica expires March 31, 2010. NSF is
            aiming to make an award by October 1, 2009. The challenge for NSF during
            the procurement will be to ensure that all offerors receive the same information
            and opportunities, and that NSF conducts a comprehensive analysis of the
            information contained in their proposals to arrive at the best contract for the
            USAP and the government.
     56


                                                             OIG Semiannual Report    September 2008


Management of large infrastructure projects. NSF’s investment in large
infrastructure projects and instruments such as telescopes and earthquake
simulators presents the agency with a number of administrative and financial
challenges that have sometimes not received the same attention as the techni-
cal issues associated with building these large-scale scientific tools. Past OIG
audits suggest that the agency’s oversight of infrastructure projects is in some
cases more engaged in dealing with technical issues, where NSF’s scientific
expertise can be applied, rather than financial and project management mat-
ters. The audits provide details about the difficulty of managing the design,
construction, and financing of these cutting edge projects and completing the
facilities on time and within budget.

During the past year, the agency has continued to make progress in address-
ing some of our longstanding concerns. In particular, NSF continues to train
agency staff on project management and other issues related to large facilities,
and has slightly increased staff assigned to the Large Facilities Office (LFO)
from 4 to 5. However, some of the issues we have raised in the past persist.
For example, NSF has still not fully completed the in-depth guidance necessary
to carry out the broader policies described in its facilities manual. Meanwhile,
annual operating costs for large facilities now exceed $1 billion and represent
a significant portion of NSF’s entire budget, as the number of active facilities
in all phases of development continues to grow. While NSF has increased the
personnel assigned to LFO, we remain concerned that it has not been as-
signed adequate authority or staff to handle the full responsibility for oversight
of the entire life-cycle of these facilities. Therefore, the challenge for NSF
is to continue to improve its management of and knowledge about the entire
facility life cycle in order to assure their successful operation. To assist NSF in
addressing this challenge, OIG is undertaking a series of reviews that focus on
the cooperative agreements by which the agency provides for the management
and operation of its large facilities.

Audit resolution. Audit resolution, closure and follow-up together comprise
a key element of an agency’s internal control structure and help to identify and
prevent waste, fraud and abuse. For all OIG audits and those of NSF awardees
performed under OMB Circular A-133, NSF implements the requirements of
revised OMB Circular A-50 on Audit Follow-up. The OIG works with NSF staff
to resolve internal control, compliance, and questioned cost findings contained
in these audits and to ensure that the auditees implement corrective action
plans to address the audit findings. Since 57 percent of NSF audits focus on
contract or grant funds, there are frequently three parties (agency, auditors, and
awardees) rather than two participating in audit resolution, making the process
more complicated and challenging. Therefore, OIG initiated a review this year
to determine whether NSF has adequate policies and procedures to ensure
that audit findings and recommendations are fully, effectively, and appropriately
resolved. The report will be issued in 2009.

International awards. As funding for scientific research around the world
increases and commerce becomes more global, collaborations between
countries and their scientists to conduct research are also on the rise. It
is estimated that NSF spends between $300 and $400 million annually on
research awards that involve participants from overseas. In addition to manag-
ing its own international funding, because of its grant administration experience

                                                                                      57


Appendix


            NSF is increasingly being sought after by agencies and non-profits to manage
            their international awards for a fee. This increase in its international portfolio
            amplifies the need to ensure the financial and programmatic accountability of
            these projects in areas such as use of research funds, integrity in research,
            and project performance. The National Science Board noted in a recent report:
            “Accountability must be an integral part of planning successful collaborations to
            assure supporters that research integrity is a priority and that funds are used
            appropriately”.1

            Past OIG audits of NSF’s international awards have found that international
            awardees are largely unfamiliar with the terms and conditions that are applied
            by U.S. funding organizations. In those situations where there is more than
            one funding organization with conflicting administrative priorities, it is unclear
            to awardees which to follow. Similarly, standards for the conduct of research
            that define plagiarism and data falsification and their penalties, often differ
            from country to country depending on the scientific field. NSF must address
            these financial and programmatic challenges by working with other international
            science organizations to harmonize their policies and create internationally
            recognized standards and practices that will protect the integrity of the research
            enterprise along with the funds that support them.

            Ethical conduct of research. In increasing numbers, researchers and stu-
            dents from all over the world who are trained to different standards and expec-
            tations of responsible and ethical conduct of research are finding themselves in
            close collaborations. At the same time studies show that the current training
            programs in ethical research are ineffective. Advances in computer technology
            coupled with the increasing amount of information and data stored on the
            internet, have increased the opportunities for unethical researchers to commit
            research misconduct or engage in questionable research practices. OIG has
            long urged NSF to do more to foster integrity among researchers. Last year,
            the America COMPETES Act of 2007 (The Act) presented the agency with a
            new mandate. Its states: “The Director shall require that each institution that
            applies for financial assistance from the Foundation for science and engineer-
            ing research or education describe in its grant proposal a plan to provide
            appropriate training and oversight in the responsible and ethical conduct of
            research to undergraduate students, graduate students, and postdoctoral
            researchers participating in the proposed research project.”

            Since the passage of The Act, NSF has taken some initial steps toward
            compliance, such as conducting internal assessments and seeking advice
            from academe on developing such guidance, but to date has only responded to
            the requirements regarding postdoctoral researchers. In light of this growing
            challenge to the integrity of NSF’s funded programs NSF needs to immediately
            implement a more comprehensive, agency-wide program to instill ethics and
            integrity at all levels of the scientific, engineering and education enterprise it
            supports.
            .



            1 National Science Board, International Science and Engineering Partnership: A Priority for U.S. Foreign
            Policy and our Nation’s Innovation Enterprise.


     58
	
       
	
                                                            OIG Semiannual Report    September 2008


Human Capital

Workforce planning. As a management challenge for NSF, workforce plan-
ning refers primarily to three issues: planning for future staffing, management
succession, and the use of visiting scientists or “rotators”. Management and
staff have attempted for most of the past decade to keep pace with an increas-
ing workload, driven by a rising number of proposals from researchers seeking
grant funds. Despite this increase in workload, few additional staff have been
added to the agency over the past 10 years. Past staffing imbalances at NSF
have prompted questions from Congress and others about how it conducts its
planning and has driven agency efforts to develop a more formalized process
over the past three years.

As part of its Human Capital Management Plan, the agency piloted a workforce
analysis tool to assist it in determining the appropriate number of FTEs needed
by each individual directorate. While the analytical tool gives NSF an objective
basis for projecting its future staffing needs, the methodology is primarily based
on the relationship between historical staffing levels and various measures of
workload. To date, NSF has not conducted a comprehensive skills analysis
to identify gaps between the abilities of the current and projected workforce.
A skills analysis is recommended by the Office of Personnel Management to
promote informed, forward-looking workforce planning. For this reason, NSF
received a “red light” for its management of human capital on the President’s
Management Agenda Scorecard from OMB this past year. Though NSF’s new
Human Capital Strategic Plan issued in March 2008 promised “particular focus
on addressing identified skill gaps”, the agency now believes that a formal skill
gaps analysis would be inappropriate for NSF.

Meanwhile the number of NSF staff eligible for retirement is even greater
than that of the rest of the federal government. The agency estimates that 34
percent of its workforce is over 55, as opposed to 24 percent for the govern-
ment overall, and the average age of an NSF employee is 50. NSF has been
fortunate that the retirement rate for the past four years has been lower than
the rest of government at 13.5 percent. In preparation for the eventual rise in
retirements, NSF has articulated three core strategies to guide its succession
planning including an effective transition process, comprehensive leadership
development, and sound knowledge management practices.

The temporary employment of “rotators” or visiting scientists, as a means
of revitalizing the agency’s knowledge about specific cutting edge areas of
research, also poses an administrative and management challenge for NSF.
In FY 2007, there were about 219 rotators working at NSF comprising ap-
proximately 15 percent of NSF’s workforce and an even greater percentage of
its program officers. NSF estimates that 15-20 percent of its executives and 14
percent of its science and engineering staff are subject to annual turnover. The
continual replenishing of this critical but temporary workforce presents a chal-
lenge for the agency as they require more administrative support in the form of
hiring, processing, training, and supervision, than a permanent employee. The
presence of so many rotators also complicate efforts by the agency to conduct
effective succession planning as there are certain positions for which their
level of institutional knowledge or management skills are not appropriate. NSF
recognizes the problem and has focused more attention on the unique issues
surrounding rotators in developing their Human Capital Strategic Plan.
                                                                                     59


Appendix


            Administrative infrastructure. The ability of NSF directorates to hire new
            employees and to travel continues to be hindered by a lack of resources as well
            as poorly designed systems, As reflected in the most recent surveys of NSF
            staff, the agency’s understaffed human resource office continues to extend the
            time required to bring on board needed new employees. Basic human capital
            services such as staffing and recruitment, workforce planning, and organiza-
            tional development received among the lowest ratings registered in NSF’s 2007
            customer satisfaction survey.

            In addition, the efforts of NSF program and financial staff to monitor awards
            through on-site inspections are impeded due to problems associated with
            funding and scheduling travel. Over the past 5 years, NSF’s travel funds have
            increased at an annual rate of only 4.7%, this during a period when the agency
            has strengthened its administrative post-award oversight in part by conducting
            more site visits. Our concern is that that the funding of more financial site visits
            will be performed at the expense of the program officers who must also be
            able to observe awardee operations first-hand and meet with grantees. The
            difficulty of using the Fed Traveler system to schedule and account for travel is
            reflected in its poor rating in the survey of agency staff. NSF should strengthen
            its commitment to effective post-award administration by increasing the avail-
            ability of funds for travel, and streamlining the process for accomplishing it.

            Budget, Cost and Performance Integration

            Performance reporting. The Government Performance and Results Act
            (GPRA) requires agencies to identify the outcomes that they were created to
            accomplish, and to establish and track their progress against performance
            measures that best reflect progress toward accomplishing those goals. How-
            ever, as the Committee on Science, Engineering, and Public Policy observed:
            “evaluating federal research programs in response to GPRA is challenging
            because we do not know how to measure knowledge while it is being gener-
            ated, and its practical use might not occur until many years after the research
            occurs…”.2 For this reason NSF has struggled over the years to define the
            outcomes that follow from its mission, and to set up appropriate performance
            measures.

            In its 2006-2011 strategic plan, NSF revised its 4 strategic outcome goals, in
            part to clarify them for reporting purposes. However, the outcomes described
            are very general and tend to complicate independent efforts to conduct a
            meaningful evaluation of the agency’s performance. George Mason Univer-
            sity’s Mercatus Center ranked the quality of NSF’s performance reporting as
            18th out of 24 federal agencies reviewed in its most recent Annual Performance
            Scorecard.3 In addition, NSF’s Advisory Committee on GPRA counseled NSF
            to consider ways to demonstrate the long-term impacts of NSF support to make
            their reporting more comprehensive. NSF would be wise to follow the Advisory
            Committee’s recommendation.




            2 Implementing the Government Performance and Results Act for Research, p.1
            3 9th Annual Performance Report Scorecard, p. 67


     60


                                                               OIG Semiannual Report     September 2008


Cost information. The demand for increased disclosure and transparency
by government agencies about their finances continues to grow each year. A
recent survey commissioned by the Association of Government Accountants
indicates that 1) federal financial reporting is important to taxpayers, 2) it affects
their level of trust in government, and 3) government is failing to meet expecta-
tions regarding its obligation to explain how it spends its money. In response
to this problem, Congress enacted the Federal Funding Accountability and
Transparency Act of 2006 (The Act), requiring federal agencies to publicize for
the first time detailed information about all grants and contracts over $25,000
in a searchable, on-line format. Since grants and contracts comprise ap-
proximately 95 percent of NSF’s appropriation, The Act has effectively opened
the agency’s accounting books to the public for the bulk of its expenditures, a
positive development.

However, while information about NSF’s awards is now readily available, details
about its own operating costs are much harder to find. In its annual financial
report and performance highlights, NSF’s operating costs are aggregated
and presented according to its three strategic goals which are too general
to enable any meaningful evaluation of how well the agency is managing its
own resources. An annual report that omitted information about how much a
business spends on salaries, office space, or other basic expenses would be of
limited use to shareholders or regulators. Detailed cost information is not just
necessary to determine an organization’s cost-effectiveness and efficiency, but
is also crucial to fostering accountability. For that reason, NSF should strive to
improve and increase its disclosure of operating costs.

United States Antarctic Program (USAP)

USAP long-term planning. One of NSF’s most important responsibilities is
the operation of the USAP which is overseen by the Office of Polar Planning
(OPP). Through a 10-year $1.3 billion contract, OPP provides all necessary
services and support to three U.S. research stations: McMurdo, South Pole,
and Palmer. As part of its mandate, NSF is also responsible for the research
infrastructure in Antarctica’s harsh polar environment. The agency spent
approximately $233 million for USAP infrastructure and logistics in FY 2007.
The periodic replenishment of the infrastructure is a key element of USAP’s
long-term planning efforts, as well as a management challenge, because of its
impact on the health and safety of program participants as well as the perfor-
mance of scientific research.

In a note to its FY 2007 financial statements, NSF reports that scheduled
maintenance on 17 items of Antarctic capital equipment in poor condition was
deferred, explaining that deferred maintenance on assets in poor condition is
considered “critical to maintaining operational status” due to the environment
and remote location. OPP commonly defers maintenance when the Program
lacks either parts or money. In FY 2008 and 2009, USAP budgets have
also been affected by rising fuel costs and a weak dollar, further impeding
NSF’s ability to make long-planned investments in renewing and upgrading
its infrastructure. Several years ago, OIG auditors recommended that NSF
develop a life-cycle oriented capital asset management program along with a
consistent budgeting mechanism to ensure that USAP’s infrastructure needs


                                                                                         61


Appendix


            are adequately addressed and do not pose a risk to the safety and health of
            USAP participants. NSF disagreed with this proposal.4 Since thorough plan-
            ning is particularly critical when managing within limited budgets, NSF should
            reconsider this suggestion.

            As noted in prior Federal Information Security Management Act (FISMA)
            reports, OPP also needs to improve its disaster recovery planning to be better
            prepared in the event a disruption in IT services affects its Antarctic operations.
            In FY 2008, OPP management initiated strategic planning to mitigate the po-
            tential risk of interruption to USAP program operations. OPP plans to continue
            an initiative to create alternate network connectivity for Antarctica operations
            and estimates that implementation should be completed by the end of FY 2009,
            contingent on funding. OPP is also in the process of replacing its operating
            platform with a more current and robust system by the end of FY 2010.

            Merit Review

            Broadening participation in the merit review process. Increasing the
            numbers of women and minorities who receive NSF support for their research
            and participate as reviewers in the merit review process has been a longstand-
            ing but elusive goal of the agency. The primary challenge for NSF is to assure
            that underrepresented groups have the same opportunities, access to funds
            for research, and information about the process as those that have been suc-
            cessful in receiving funding. In FY 2007 NSF continued to make incremental
            progress toward achieving many of their goals. In the case of reviewers, a
            necessary first step toward increasing diversity is to persuade individual review-
            ers to voluntarily submit demographic information. The number of reviewers
            who complied with this request increased by 3 percentage points in 2007 to
            28 percent. Meanwhile 37 percent of those who responded indicated that they
            were members of an underrepresented group, a 1 percent increase. As the
            funding rate for all PIs grew from 25 to 26 percent, the rate at which women
            and minority PIs are funded also increased by 1 percent to 27 and 25 percent
            respectively. However In FY 2007, NSF failed to achieve 4 out of 8 perfor-
            mance goals for Broadening Participation included in its Program Assessment
            Rating Tool (PART) review by OMB.

            In its FY 2006 strategic plan, NSF had promised to expand efforts to broaden
            participation. More detail about those efforts is contained in Broadening Par-
            ticipation at the National Science Foundation: A Framework for Action, a draft
            plan issued in August 2008. It lists seven recommended action items for NSF
            to undertake to integrate the broadening participation initiative into NSF’s core
            processes. One of the action items promises that it will increase the diversity
            of the reviewer population by 1) initiating the development of a searchable
            reviewer system with accurate demographic data, 2) encouraging reviewers to
            provide demographic data, 3) cultivating additional reviewer sources, and 4)
            encouraging NSF staff to use a more diverse reviewer pool. Just as important,
            another action item provides a commitment to develop a detailed implementa-
            tion schedule for accomplishing all of its recommended actions. The proposed
            development of a timetable accompanied by periodic evaluations of the prog-
            ress being made by the agency toward meeting this challenge would increase
            both the agency’s accountability and its chances of success.

            4 Audit of Occupational and Health & Safety and Medical Programs in the United States Antarctic Program,
     62

   OIG 03-2-003, March 2003.
                                                             OIG Semiannual Report   September 2008


                    REPORTING REQUIREMENTS

Under the Inspector General Act, we report to the Congress every six months
on the following activities:

Reports issued, significant problems identified, the value of questioned costs
and recommendations that funds be put to better use, and NSF’s decisions in
response (or, if none, an explanation of why and a desired timetable for such
decisions). (See pp. 5, 13, 43)

Matters referred to prosecutors, and the resulting prosecutions and convictions.
(See pp. 27, 52)

Revisions to significant management decisions on previously reported
recommendations, and significant recommendations for which NSF has not
completed its response. (See pp. 22, 51)

Legislation and regulations that may affect the efficiency or integrity of NSF’s
programs. (See p. 7)

OIG disagreement with any significant decision by NSF management. (None)

Any matter in which the agency unreasonably refused to provide us with infor-
mation or assistance. (None)




                                                                                     63


Appendix


                                    ACRONYMS


            AOR      Authorized Organizational Representative
            CASB     Cost Accounting Standards Board
            CFO      Chief Financial Officer
            CO       Contracting Officer
            COTR     Contracting Officer’s Technical Representative
            COI      Conflict of Interest
            COV      Committee of Visitors
            DACS     Division of Acquisition and Cost Support
            DCAA     Defense Contract Audit Agency
            DD       Deputy Director
            DGA      Division of Grants and Agreements
            DIAS     Division of Institution and Award Support
            DoD      Department of Defense
            DoJ      Department of Justice
            ECIE     Executive Council of Integrity and Efficiency
            EPSCoR   Experimental Program to Stimulate Competitive Research
            FAEC     Financial Audit Executive Council
            FASAB    Federal Accounting Standards Advisory Board
            FFRDC    Federally Funded Research and Development Centers
            FISMA    Federal Information Security Management Act
            FOIA     Freedom of Information Act
            GAO      Government Accountability Office
            GPRA     Government Performance and Results Act
            HHS      Department of Health and Human Services
            IG       Inspector General
            MIRWG    Misconduct in Research Working Group
            MREFC    Major Research Equipment and Facilities Construction
            NASA     National Aeronautics and Space Administration
            NSB      National Science Board
            NSF      National Science Foundation
            OECD     Organization for Economic Co-operation and Development
            OIG      Office of Inspector General
            OMB      Office of Management and Budget
            OPP      Office of Polar Programs
            PAPPG    Proposal and Award Policies and Procedures Guide
            PCIE     President’s Council on Integrity and Efficiency
            PI       Principal Investigator
            PFCRA    Program Fraud Civil Remedies Act
            QCR      Quality Control Review
            SBIR     Small Business Innovation Research
            STC      Science and Technology Centers
            USAP     United States Antarctic Program
            USAO     United States Attorney’s Office




     64


                                               OIG Semiannual Report   September 2008


                         AWARDS AND ACCOMPLISHMENTS




                                       Jill Schamberger and Aliza
                                       Sacknovitz wrote an article
                                       published in the Journal of
                                       Public Inquiry entitled:
                                       International Efforts Towards
                                       Finanancial and Programmatic
                                       Accountability.




Carol Taylor celebrates
receiving her degree in
business management with
Dr. Peggy Fischer, a recipient
of the 2008 Presidential Rank
Award.




                                                                       65


Appendix




           Dr. Boesz presents an 

           award to Deputy IG 

           Tim Cross for 30 years 

           of federal service.
	
                              
	




                                              Audit manager Ken Stagner
                                              scales Longs Peak in Colorado
                                              (elevation 14,259 feet).




            Dr. Boesz presents an award 

            to Administrative Officer 

            Lillian Ellis for 35 years of 

            federal service.
	 
	

     66
OIG Semiannual Report   September 2008




                        67


Appendix




     68
	
       
	
